       Office of
  Inspector General
       U.S. Department of the Interior
Semiannual Report to the Congress                                   April 2004




                                Highlights
Possible ethics violations     Investigation clears        San Rafael Land
      investigated            Klamath River Basin       Exchange probe causes
         (page 2)                 management of         changes to DOI policies
                             allegations of bowing to       and procedures
                                political influence            (page 6)
                                      (page 3)
                                                                     Message From the Inspector General

     am pleased to present the results and accomplishments of the Office of Inspector General from October 1,

I    2003, through March 31, 2004. During this reporting period, we concluded two high-profile investiga-
     tions into allegations against the Deputy Secretary and the former Solicitor. The results of both investiga-
tions imputed serious weaknesses to the Department of the Interior (DOI) ethics program. Our investigations
concluded that the failure of the DOI ethics program emanates from a fundamentally flawed design, which was
crafted over many years by a host of architects. The DOI ethics program has also suffered from years of
neglect, demise, and compartmentalization, rendering it virtually incapable of effectively serving its established
purposes. These reports resulted in an opportunity for DOI to make significant changes to its ethics program
and return it to the position it held more than a decade ago when the Office of Government Ethics cited it as a
model ethics program in Government. Go to narratives

    An effective ethics program requires strong centralized leadership bolstered by the robust support of senior
DOI management. We came to this same conclusion in our review of DOI’s Office for Equal Opportunity
(OEO) program. We reviewed the OEO program at the request of the Assistant Secretary for Policy,          Go to narrative
Management, and Budget, who had received complaints by stakeholders following the introduction of a
proposed restructuring. We determined that the proposed restructuring would not only fail to resolve some of
the perceived problems in the OEO program, but might, if implemented, exacerbate them. Ultimately, we
concluded that DOI could forego a costly restructuring by implementing a limited number of recommendations
that we believe would improve the operation and effectiveness of the OEO program throughout DOI.

   I am also pleased to highlight DOI’s actions in response to one of our accomplishments reported in our
October 2003 Semiannual Report. Upon receiving our report on the San Rafael land exchange, the Secretary
expanded the charge she had given to the Land Transaction Work Group to include reforms to policies and pro-
cedures governing legislative land exchanges. We were recently provided the Work Group’s proposed reforms
and are encouraged, overall, with its progress. Go to narrative

   These accomplishments, among others, are representative of our efforts to address concerns that extend
beyond individual bureau lines. When our work results in corresponding reforms implemented by DOI, our
mission to promote excellence, integrity, and accountability in the programs, operations, and management of
DOI is furthered, and we look forward to new opportunities to accomplish the same.




                                                            Earl E. Devaney
                                                            Inspector General




                          Semiannual Report to the Congress: October 1, 2003 - March 31, 2004
                                                                                                                                      Table of Contents

  Statistical Highlights................................................................................................................................ ii
  Organization ........................................................................................................................................... iv
  Mission ................................................................................................................................................... 1
  Top Management Challenges ................................................................................................................. 1


Significant Audit Activities and Investigations

  Department of the Interior....................................................................................................................... 2
  Bureau of Indian Affairs.......................................................................................................................... 8
  Office of the Special Trustee for American Indians................................................................................ 16
  Bureau of Land Management.................................................................................................................. 17
  Bureau of Reclamation............................................................................................................................ 19
  National Park Service.............................................................................................................................. 20
  Office of Insular Affairs.......................................................................................................................... 22
  U.S. Fish and Wildlife Service ............................................................................................................... 23


Appendixes

   1. Summary of Audit Related Activities From October 1, 2003, Through March 31, 2004.................. 26
   2. Reports Issued or Processed During the 6-Month Period Ended March 31, 2004............................. 27
   3. Monetary Impact of Audit Activities From October 1, 2003, Through March 31, 2004................... 45
   4. Audit Resolution Activities
             Table I......................................................................................46
             Table II.....................................................................................47
             Table III....................................................................................48
   5. Summary of Audit Reports Over 6 Months Old Pending Management Decisions
             October 1, 2003, Through March 31, 2004.................................................................................49
   6. Summary of Internal Audit Reports Over 6 Months Old Pending Corrective Action
             October 1, 2003, Through March 31, 2004.................................................................................63
   7. Summary of Insular Area Reports With Open Recommendations Over 6 Months Old.....................68
   8. Cross References to the Inspector General Act.................................................................................. 72



                                   Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                                             -i-
Statistical Highlights

                                                  Audits
Reports Issued                                                                                             47
   Internal Audits                                                                                   38
   Contracts and Grant Audits                                                                         9

Single Audits Processed                                                                                    205




                                          Audit Impacts
Total Monetary Impacts                                                                        $107,241,590

   Questioned Costs (includes unsupported costs)                                             $17,021,418
   Recommendations That Funds Be Put to Better Use                                            38,219,271
   Lost or Potential Additional Revenues                                                      52,000,901

Internal Audit Recommendations Made                                                                        316

Internal Audit Recommendations Resolved                                                                    300




                                           Investigative
Cases Closed                                                                                               147

New Cases Opened                                                                                           173

Hotline Complaints/Inquiries Received                                                                       71


                       Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                    -ii-
                                                                                         Statistical Highlights

                                                 Criminal
Indictments/Information                                                                                     20

Convictions                                                                                                 12
Sentencings                                                                                                 17
  Jail                                                                                              89 months
  Probation                                                                                        663 months
  Community Service                                                                                 300 hours

Criminal Judgments/Restitutions                                                                   $1,423,100

Criminal Matters Referred for Prosecution                                                                   12

Criminal Matters Declined                                                                                    9


                                                     Civil
Civil Referrals                                                                                              1

Civil Recoveries                                                                                   $6 million

Civil Declinations                                                                                           1


                                           Administrative
Personnel Actions
  Removals                                                                                              5
  Downgrades                                                                                            3
  Suspensions                                                                                           4
  Resignations                                                                                          1
  Retirements                                                                                           2
  Reprimands/Counseling                                                                                11
  Reassignments/Transfers                                                                               1
  General Policy Actions                                                                                9
  Bills for Collection Issued                                                                           2
Administrative Recoveries/Restitutions                                                               $92,738


                        Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                    -iii-
Organization




                                          Inspector General
                                      Deputy Inspector General




           Associate
       Inspector General                                                                Office of
       for Whistleblower                                                             General Counsel
           Protection




                                    Assistant                                                   Assistant
                              Inspector General for                                       Inspector General for
                                  Investigations                                         Administrative Services
                                                                                            and Information
                                    Deputy AIG                                                Management
         Assistant                                                Assistant                   Deputy AIG
    Inspector General                                       Inspector General for
        for Audits                                             Human Capital
                                                                Management
      Deputy AIG



                                                                                                 Chief
                                                                                              Information
                                                                                                Officer




                        Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                    -iv-
                                                              Mission and Top Management Challenges


                                                                Mission
                                 The mission of the Office of Inspector General is to promote
                             excellence, integrity, and accountability in the programs, operations,
                                     and management of the Department of the Interior.




                                        Responsibilities
    The Office of Inspector General (OIG) is responsible for independently and objectively identifying risks
and vulnerabilities that directly impact, or could impact, the Department of the Interior’s (DOI) ability to
accomplish its mission. We are required to keep the Secretary and the Congress fully and currently informed
about problems and deficiencies relating to the administration of departmental programs and operations.
Effective implementation of this mandate addresses the public’s demand for greater accountability and integrity
in the administration of government programs and operations and the demand for programs that work better,
cost less, and get the results Americans care about most.

                                               Activities
     The OIG accomplishes its mission by conducting audits, investigations, evaluations, and assessments
relating to the programs and operations of DOI. Our activities are tied directly to DOI’s major responsibilities
and are designed to assist DOI in developing solutions for its most serious management and program chal-
lenges, most notably cross-cutting or department-wide issues. They are also designed to ensure that we keep
critical issues on the “radar screen” of key decision-makers. By continually keeping critical issues prominent,
we greatly influence and increase the likelihood that desired outcomes and results that benefit the public will
be achieved.


                         Department of the Interior’s
                         Top Management Challenges
As reported in the DOI FY 2003 Report on Accountability:

   Financial Management                                       Responsibility to Indians and Insular Areas
   Information Technology                                     Resource Protection and Restoration
   Health, Safety, and Emergency Management                   Revenue Collection
   Maintenance of Facilities                                  Procurement, Contracts, and Grants


                         Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                      -1-
Significant Audit Activities and Investigations



                   Department of the Interior

Deputy Secretary Investigated for Possible Ethics Violations
   In June 2002, OIG initiated an investigation after receiving information alleging that government contracts
had been steered by high-level DOI officials to a company with which DOI Deputy Secretary J. Steven Griles
had been associated. Our investigation expanded as additional concerns came to our attention regarding the
Deputy Secretary – both through our own efforts and at the requests of DOI Secretary Gale A. Norton and
Senator Joseph Lieberman.

    In addition to investigating these concerns, we completed an assessment of DOI’s processes for ensuring
that high-ranking officials comply with ethics recusal agreements. Ultimately, we determined that, following
years of neglect, demise, and compartmentalization, the ethics program at DOI had failed its charge.

    In the end, our investigation took more than 18 months to complete. We provided our report to the Public
Integrity Section of the Criminal Division, U.S. Department of Justice, which agreed that these matters should
be referred to the Office of Government Ethics (OGE) for a determination of any ethics violations.

   OGE conducted a review and analysis, and suggested that, in most instances, the Deputy Secretary’s con-
duct did not constitute violations of his ethics agreement or the Standards of Ethical Conduct. However, OGE
questioned the Deputy Secretary’s participation in a “particular matter involving specific parties” and his
organization of a dinner party, but did not opine on them.

    The report of investigation was forwarded to the Secretary on March 16, 2004. After reviewing the OGE
and IG reports, and considering the fact that after two years of investigation OGE was not able to determine
that a violation had, in fact, occurred, and that as to the “particular matter” question that the proper legal and
factual analysis was that no “particular matter involving specific parties” was involved, the Secretary deter-
mined that no further action was warranted with regard to the Deputy Secretary. DOI has taken a number of
steps to respond to the criticism of the DOI ethics program.                                        Read full report


Former Solicitor Investigated for Possible Ethics Violations
    In response to a request from OGE, we conducted an investigation into allegations against then-Solicitor of
DOI, William G. Myers, III. The Public Employees for Environmental Responsibility (PEER) and Friends of
the Earth (FOE) had complained to OGE that Myers may have violated his ethics agreement and criminal
conflict-of-interest laws by participating in a series of meetings with former clients and his former law firm.

    We investigated the specific meetings questioned, and we discovered and investigated several additional
contacts between Myers and his former law firm. We presented the results to the Public Integrity Section of
the Criminal Division, U.S. Department of Justice, which agreed we should refer the matter to OGE for a
determination of any potential ethics violations. OGE determined that no ethics violations had occurred.

                           Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                        -2-
                                                             Significant Audits Activities and Investigations

Competing Interests Identified in Klamath River Basin Project
                                                                        Our investigation into the Klamath River Basin
                                                                    Project found fiercely competing interests among
                                                                    the Klamath Tribes, irrigators, fishermen, environ-
                                                                    mentalists, and even among opposing federal
                                                                    officials relating to the use and/or conservation of
                                                                    limited water resources. We also found that these
                                                                    interests have highly charged differences of
                                                                    opinion concerning what constitutes the best
                                                                    scientific and commercial data available, how the
                                                                    project should be operated, and how to accommo-
                                                                    date specific, diverse, and competing interests.
                                                                    Unfortunately, accommodation becomes impracti-
                                                                    cable when the competing interests are mutually
Photo Courtesy U.S. Fish and Wildlife Service                       exclusive of one another, as in this instance.
Upper Klamath, Oregon
                                                                 We determined that the administrative process
followed in this matter did not deviate from the norm. Our review of the available documents and the rulings
of the U.S. District Court for the Northern District of California support the conclusion that DOI had compiled
the necessary information to support each decision related to the Klamath Project.

     None of the individuals we interviewed – including the whistleblower – were able to provide any
competent evidence that DOI utilized suspect scientific data or suppressed information that was contained in
economic and scientific reports related to the Klamath Project. To the contrary, the National Research Council
of the National Academies, in its final report issued October 2003, specifically disagreed with the criticism that
had been directed against the federal agencies for using “junk science.” This position is bolstered by the find-
ings of the U.S. District Court for the Northern District of California, which concluded that, in light of the con-
flicting state of scientific evidence, the decisions were based on the best available science at the time.

    Finally, we found no evidence of political influence affecting the decisions pertaining to the water in the
Klamath Project. Individuals at all levels of the process denied feeling any political pressure to render a
decision one way or another. Collectively, these decision-makers described a process of thorough and thought-
ful consideration of all the competing interests and requirements, although they were frustrated by the fact that
certain interests and requirements were mutually exclusive. The consistent denial of political influence by
government officials was corroborated by the view of the outside scientists and one former DOI official, all of
whom denied feeling any pressure – political or otherwise.

    The complexity of the issues involved and the ferocity of the debate clearly fueled the flames of suspicion
and distrust in this matter. Based on the results of our investigation, however, we concluded that DOI
conducted itself in keeping with the administrative process governing the Klamath Project, that the science and
information utilized supported DOI's decisions, and that no political pressure was perceived by any of the key
participants.
                                         Read response letter to Senator John F. Kerry


                              Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                            -3-
Significant Audits Activities and Investigations

Better Management of Motor Vehicle Fleet Could Save $34 million
    During fiscal year 2002, DOI reported that it              sedans, sport utility vehicles, and light-duty trucks
operated 36,000 vehicles at a cost of approximately            that are used for the transportation of people and
$200 million. The number of vehicles, multiple                 cargo. These four fleets comprise 82 percent of
missions, high cost of fleet operations, and                          DOI’s total fleet.
dispersed geographic locations make
managing DOI fleet operations a                                                                  We estimated that the
challenging undertaking.                                                                      general-purpose fleet uti-
                                                                                              lization rate was only 56
    Our audit focused                                                                         percent of the estab-
on the general-purpose                                                                        lished performance
vehicles in four of                                                                           targets. At this rate,
DOI’s six largest fleets.                                                                     vehicle underutilization
General-purpose                                                                               cost DOI an estimated
vehicles are typically      Photo courtesy Bureau of Land Management                          $34 million a year.


To effectively manage its fleet and meet the expected performance requirements, DOI needs
to implement these recommendations:

                            Empower fleet managers with decision-making authority to control the size and com-
                            position of the fleet.

                            Initiate fleet management information systems that capture and report all necessary
                            information, including cost accounting, utilization data, and efficiency measurements.

                            Create performance measures that are appropriate to the mission of a specific vehicle,
                            such as miles per year, days of use, or number of trips per day.

                            Build baseline authorizations of the number of vehicles needed to meet vehicle
                            mission requirements, which will establish fleet size and composition. To build the
                            baseline authorizations, DOI needs to prepare a justification for each vehicle in the
                            fleet.

                            Employ a mechanism that provides a constant source of funds for the orderly and
                            timely replacement and/or addition of vehicles to the fleet.


    DOI concurred with our recommendations and has developed a comprehensive and coordinated action plan
that, when implemented, should greatly enhance the DOI’s fleet management capabilities.

                                                     Read full report


                            Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                         -4-
                                                        Significant Audits Activities and Investigations

Proposal to Consolidate Office of Equal Opportunity Not Advisable
    In response to a request by the Assistant Secretary
for Policy, Management, and Budget, we evaluated a                    “DOI has less costly and less
proposal to restructure and centralize the Office for              disruptive alternatives to the
Equal Opportunity (OEO). The restructure proposed                  proposed restructure.”
to consolidate functions, eliminate duplication, reduce
costs, and improve quality and timeliness of services
to customers. Stakeholders had expressed concerns             prevention and early resolution. We concluded DOI
that the proposal lacked detail in the areas of funding,      has less costly and less disruptive alternatives to the
staffing, and responsibility, and that it may represent a     proposed restructure.
“solution looking for a problem.”
                                                                  We identified several key areas – leadership,
    We found no evidence to conclude that the whole-          organization, and accountability – that needed
sale restructuring would accomplish any of its stated         improvement, but concluded that this could be accom-
objectives. We also discovered that the unexpected            plished largely within the existing OEO structure.
results of such a restructuring would be severed com-         DOI has already undertaken action to implement our
munications with stakeholders – an impediment to              suggestions.

DOI Needs to Improve Performance Indicators and Reporting
     DOI’s first strategic goal for fiscal year 2001 was to
protect the environment and preserve our nation’s natu-
ral and cultural resources. Our audit found, however,
that performance information reported for this goal for
fiscal year 2001 was inappropriate or incomplete. That
is, performance indicators did not include all relevant
bureaus, did not have annual targets, were not under the
direct control of federal managers, or were not
outcome-oriented. We attributed this inadequacy to
weaknesses in DOI’s strategic planning process.

    We also found errors in reported accomplishments,
which we attributed to a lack of data verification and
weak procedures for collecting and maintaining sup-
porting documentation. During our review, we noted
that DOI was revising its strategic planning model and
instituting a new data verification policy.

   These actions, DOI’s response to the report, and
other information subsequently provided resolved the
report’s two recommendations.
                                    Read full report                                                         OIG Photo


                          Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                       -5-
Significant Audits Activities and Investigations

Investigation Leads to New Land Exchange Policies, Procedures
    An OIG investigation
of the proposed San Rafael
Land Exchange, formally
known as the 2002
Federal-Utah State Trust
Lands Consolidation
Agreement, identified a
seriously flawed process
within DOI for legislative
land exchanges. It has
also resulted in some
positive proposed changes
within DOI.

    In November 2003,
Secretary Norton
announced the consolida-
tion of real estate appraisal
functions previously
performed by various DOI
agencies into the newly
formed Office of Appraisal                                                Photo courtesy U.S. Fish and Wildlife Service
Services. This newly                                                      Desert Tortoise Habitat, St. George, Utah
formed organization has
been carefully structured to ensure appraiser independence, ensure that appraisals meet recognized professional
standards, and enhance the reliability of DOI appraisals.

    The Secretary also established an Appraisal Reform Implementation Team. This team has analyzed DOI
policies on land exchanges, giving consideration to our recommendation from the San Rafael report. The poli-
cy changes proposed by the team should, if effectively implemented, resolve the concerns that arose in the
proposed San Rafael exchange.




                           Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                        -6-
                                                        Significant Audit Activities and Investigations

KPMG Issues Unqualified Opinion on DOI Financial Statements
    The independent certified
public accounting firm of                            Material Weaknesses
KPMG LLP (KPMG), under
contract with the OIG,            DOI internal control weaknesses continue to be identified:
rendered an unqualified
opinion on DOI’s fiscal year      Controls Over Property, Plant, and Equipment
2003 consolidated financial       Weaknesses were reported in acquisitions and disposals; reconcilia-
statements. KPMG also             tion of subsidiary ledgers to general ledgers; inventory of property,
rendered unqualified              land, and land rights; leased property; inventory certification; depre-
opinions on the financial         ciation; and accounting for construction in progress.
statements of BLM, the
National Park Service (NPS),      Financial Reporting Controls
Office of Surface Mining          Financial reporting controls must be improved to ensure transactions
Reclamation and                   are promptly and properly recorded for timely and reliable financial
Enforcement (OSM), U.S.           reports.
Fish and Wildlife Service
(FWS), Departmental               Intra-governmental Reconciliation
Offices, Minerals                 DOI had not reconciled its non-fiduciary, intra-governmental transac-
Management Service                tions and balances because its trading partners did not consistently
(MMS), Bureau of Indian           provide information necessary to properly record the transactions.
Affairs (BIA), and the            DOI also did not designate the appropriate trading partner codes for
Bureau of Reclamation             certain transactions.
(BOR). For the U.S.
Geological Survey (USGS),         Trust Fund Management Controls
KPMG rendered an unquali-         DOI procedures and controls were not adequate to ensure Indian
fied opinion on the balance       Trust Fund activities and balances were recorded properly or timely.
sheet but did not express an
                                  KPMG also identified 10 critical but less significant control weaknesses.
opinion on the other
financial statements.




                         Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                      -7-
Significant Audit Activities and Investigations



                  Bureau of Indian Affairs

Four of the Skull Valley Band of Goshutes Charged With Fraud
Three Goshutes and their attorney are accused of illegally accessing tribal accounts.

    Four members of the Skull Valley Band of Goshutes — including its chairman — and the attorney repre-
senting a faction of the tribe have been charged with federal crimes ranging from making fraudulent statements
to committing theft and bank fraud. A grand jury returned two separate indictments.

   The first charges Tribal Chairman Leon D. Bear of two counts of theft from Indian tribal organizations, one
count of theft from federally funded programs, and three counts of fraud and making false statements. Bear is
accused of paying himself with tribal money through various schemes, and stealing or misapplying more than
$154,000 in 3 months — from December 1998 to February 1999.

    The other indictment names tribal members Marlinda Moon, Sammy Blackbear, Miranda Wash, and their
attorney, Duncan Steadman, as defendants. They are charged with one count each of theft from an Indian
tribal organization and five counts each of bank fraud and aiding and abetting.

    The indictment accuses the three Goshutes and Steadman of using a fabricated, notarized certification of
tribal election to access tribal bank accounts and open new ones. The foursome is accused of opening new
accounts and transferring nearly $385,000 from other accounts. Prosecutors also accused them of withdrawing
$250,000 from the tribe’s bank account.

    The indictment also alleges the foursome used the document to secure a $45,800
check from Zions Bank, which they deposited into a Wells Fargo Bank
account and used for unauthorized purposes. The indictment claims
Steadman received about $11,000 of that money.

        The indictments followed more than 2 years of investigation
conducted jointly with the U.S. Attorney’s Office, the Federal Bureau of
Investigation (FBI), and the Internal Revenue Service (IRS) of alleged
corruption within the Goshute Tribe. Trial is pending.




                         Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                      -8-
                                                        Significant Audits Activities and Investigations

Guilty Plea in First Federal Case of Tribal Recognition Fraud
    Ronald Roberts, also known as Chief Golden Eagle and/or Sachem, Western Mohegan Tribe and Nation,
pleaded guilty in U.S. District Court 6 days into his trial. He was on trial for submitting false documents to the
government with his petition for federal recognition of the Western Mohegan Tribe and Nation through the
BIA. This is the first case of its type to be prosecuted.

     In pleading guilty to the charges, Roberts admitted that he presented a “First Amendment Petition for a
Redress of Grievances from the [Western] Mohegan Tribe and Nation of New York,” to the President of the
United States and the Secretary of the Interior knowing it contained a false and fraudulent genealogy of the
Roberts’ family, an altered death certificate for Roberts’ grandfather, and an altered version of the New York
Census of 1845. Roberts also admitted that he had used a false social security number in a bankruptcy petition
filed in the U.S. Bankruptcy Court in 1996. Roberts entered his guilty plea as the government was concluding
its case in the trial.

    The prosecution contended that Roberts submitted the fraudulent federal recognition documents to enable
him to initiate gaming and casino operations in northern New York. The Indian Gaming Regulatory Act dic-
tates that an Indian tribe cannot operate a gambling facility unless it is first recognized by the federal
government. The BIA has never acknowledged the Western Mohegans. We initiated our investigation when
the BIA’s Branch of Acknowledgement and Research, now the Office of Federal Acknowledgement, identified
the questionable materials submitted with the petition and referred the matter to our investigators. We last
reported on the Roberts case in the April 2003 Semiannual Report.

    Roberts is scheduled for sentencing in June 2004, and faces up to 5 years of imprisonment, a $250,000
fine, or both, and a 3-year period of supervised release to follow any term of imprisonment.


Former Director Arrested on Charges of Theft, Money Laundering
    Maricela Mendoza, former Director, Kickapoo Community Health Services Program, Kickapoo Traditional
Tribe of Texas (KTTT), was indicted by a federal grand jury for theft of federal funds and money laundering.
The indictment also contained a Notice of Criminal Forfeiture, in which the government seeks to collect a
$260,000 monetary judgment.

    The indictment alleges that Mendoza stole money from the Kickapoo Community Health Services, which
is funded by the U.S. Department of Health and Human Services. Kickapoo Community Health Services funds
are used to pay for medical treatment and medication for tribe members.

   This indictment is part of a multiple agency task force. Trial is pending.




                          Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                       -9-
Significant Audits Activities and Investigations

Former Housing Authority Director Sentenced for Embezzlement
She embezzled more than $420,000, including more than $150,000 in a single year.

    Brenda Lou Welsh, former Executive Director of the Keweenaw Bay Ojibwa Housing Authority in Baraga,
Michigan, was sentenced to 36 months incarceration by U.S. District Court, Western District of Michigan, for
embezzling nearly $421,000 in federal funds from the Keweenaw Bay Ojibwa Housing Authority. In addition,
Welsh was sentenced to 3 years of supervised release following her prison term, and she was ordered to pay
restitution for the full amount of the embezzled funds.

    The Keweenaw Bay Ojibwa Housing Authority provides housing assistance to members of the Keweenaw
Bay Band of Chippewa. Welsh served as the Executive Director from March 1972 until
June 2001. Our investigators, with assistance from the FBI and the Department of Housing
and Urban Development OIG, found that Welsh ran the housing authority with virtually no
oversight by the housing board. She exploited her position to embezzle funds from the
housing authority’s cash rent receipts and from several housing authority bank accounts.
Welsh concealed her fraudulent activities by providing false accounting reports to the
housing authority’s bookkeeper and by maintaining exclusive control over the bank
account records. As a result, Welsh was able to continuously embezzle funds from
April 1992 to June 2001 without being detected, including more than $150,000 in a
single year.

    Welsh’s sentencing was the result of a guilty plea by Welsh to a single count of theft of
federal program funds. Pursuant to her plea agreement, Welsh is required to fully disclose all
assets and sources of income, and she must fully cooperate in recovering the embezzled funds.
Prior to sentencing, Welsh voluntarily reimbursed the housing authority $49,500 from her retirement fund.


Santee Sioux Tribe Officials Indicted for Theft; One Pleads Guilty
    Richard Thomas, former Social Services Director,           Donald Whipple, former Assistant Director for the
Santee Sioux Tribe of Nebraska (SST), was indicted         Dakota Tiwahe Services Unit of the SST, Santee,
by a federal grand jury in Omaha, Nebraska, on one         Nebraska, was sentenced in the U.S. District Court of
count of theft from a program that receives federal        Nebraska to 6 months of home confinement and 3
funds and one count of theft from an Indian tribal         years of supervised release. He was indicted and
organization.                                              pleaded guilty to charges of theft from an Indian tribal
                                                           organization. Whipple admitted to diverting 24 SST
    Thomas allegedly used a tribal credit card for per-    checks totaling nearly $19,000 and negotiating the
sonal expenses, including making cash withdrawals at       checks for cash at two financial institutions.
casinos. Thomas paid the credit card charges with
checks he allegedly diverted from SST. These checks            The Dakota Tiwahe Services Unit is the SST’s
included federal funds received from the BIA through       social services department, and receives funding from
a Public Law 93-638 contract.                              the BIA.


                         Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                    -10-
                                                        Significant Audits Activities and Investigations

Process for Investigating Backgrounds Needs More Improvements
Process allows for hiring of unsuitable employees and puts Indian children at risk.


    Despite recent improvements in                Examples of Poor Screening
how it performs employee back-
ground investigations, BIA’s pre-
                                              Inquiry took more than a year to complete
screening process still allows for the
                                              A local law enforcement inquiry, which identified 26
hiring of potentially unsuitable per-
                                              offenses, including battery and endangering the welfare
sons. Further, the process does not
                                              of a minor, was not completed until 17 months after a
ensure that unsuitable employees are
                                              home living assistant was hired at a school dormitory in
terminated in a timely manner.
                                              New Mexico. This individual was subsequently removed
    We concluded that BIA’s back-             from the position. The new process still relies on local
ground investigation system is insuf-         school officials to initiate the local law enforcement
ficient to keep Indian children from          inquiries.
potential danger.
                                              Unsuitable employee worked for 9 months
    BIA agreed with our five                  A school secretary in New Mexico convicted of voluntary
recommendations to improve the                manslaughter and aggravated assault had received a
process and took other steps during           final unsuitable determination in November 2001, but
our audit to strengthen its back-             remained employed for 9 months until a final
ground screening program.                     resolution in August 2002.
      Read full report


Enhancements to Construction Program Could Improve Safety
    More than 48,000 Native American students                   In general, BIA has used these funds to replace or
attend BIA schools. Many of the schools, however,           repair schools and improve educational opportunities
are decaying and deteriorated, impeding learning, and       for students. There is more work to do, however, in
threatening student                                                                           the critical area of
health and safety.                                                                            student safety and
In response, the                                                                              in improving overall
Congress signifi-                                                                             program efficiency.
cantly increased
funding to BIA’s                                                                                     For example,
school construction                                                                               BIA needs to make
program, appropri-                                                                                sure that construc-
ating nearly $680                                                                                 tion plans meet
million over the                                                                                  safety standards
past 6 years.                                                                                     before school
                                                                             Photo Courtesy DOI
                                                                   Indian High School, Arizona


                          Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                     -11-
Significant Audits Activities and Investigations

                                                     construction begins and that newly constructed schools are
                                                     safe before students occupy them.

                                                         BIA can improve program efficiency by limiting lump-
                                                     sum and advance payments to contractors and monitoring
                                                     construction progress to prevent delays. BIA also needs
                                                     systems and policies to track program funds and determine
                                                     the best use of savings when construction projects cost less
Photo Courtesy DOI                                   than anticipated.
Indian Boarding School, Arizona                                                 Read full report




Funds Used to Administer Education Programs Improperly Managed
   BIA’s Office of Indian Education Programs (OIEP) administers the only national education program for
American Indians. In carrying out that responsibility, OIEP Central Office used about $23 million to provide
support and services to field offices and schools from July 2001 to September 2002. We found that those
funds were not adequately managed.

   BIA initiated corrections during the audit and agreed to implement the report’s 12 recommendations.


                           Examples of Mismanagement
     Inadequately planned for expenditures
     The planning was particularly lax when purchasing information technology systems from
     the General Services Administration’s Federal Systems Integration and Management
     Center. From 1995 until our review, OIEP placed orders totaling $12.9 million without
     obligating the amounts until it actually disbursed the funds.

     Used emergency contingency funds for non-emergency purposes
     For example, $3.3 million was used to upgrade and modernize the computer infrastructure
     and data communications connectivity of BIA schools and to purchase software.

     Acquired goods and services without competition
     Approximately $3.7 million worth of goods and services were obtained without competitive
     bidding. For instance, in 9 of 11 sole-source contracts we reviewed totaling $2.6 million,
     the justifications did not substantiate a need (the unique or urgent nature of the
     acquisition) for the absence of competition.
                                                                                                   Read full report




                          Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                     -12-
                                                        Significant Audits Activities and Investigations

BIA Officials Sentenced in “Operation Card Trix” Scheme
    Two more BIA officials were sentenced in relation to a scheme
known as “Operation Card Trix” that resulted in a multi-state
investigation by our office. Edwin St. Clair, a former BIA Facilities
Management Branch supervisor at the Wind River Agency in Wyoming,
and Monte Whalen, a BIA maintenance mechanic at the Pine Ridge
Indian reservation, pleaded guilty to accepting illegal payments from
Kirm G. Kath, sales representative for West Lite Corporation, in
exchange for improperly using their government credit cards to pur-
chase products or services.

    St. Clair pleaded guilty in the District of Wyoming to a charge that he accepted an illegal gratuity for his
purchase of electrical merchandise from Kath. St. Clair made these purchases using his government credit
card. St. Clair, who resigned from federal service during this investigation, was subsequently sentenced in
U.S. District Court of Wyoming to 12 months of probation and ordered to pay a $500 fine.

   Whalen pleaded guilty to accepting a gratuity from Kath, and was sentenced in U.S. District Court of South
Dakota to 2 years of probation. He was also ordered to pay $2,315 in restitution and a $500 fine.
Administrative action against Whalen is pending.

    As reported in our October 2003 Semiannual Report, Kath previously pleaded guilty to related charges for
his role in the kickback scheme and was sentenced to serve 6 1/2 years of imprisonment in a separate
investigation in Montana. Members of our investigations and audits divisions were joined in this task force
investigation by the Departments of Health and Human Services and Housing and Urban Development OIGs,
the IRS Criminal Investigation Division, and investigators of the U.S. Attorneys Office in Montana.



Former BIA Official Sentenced for Demanding and Taking Bribes
    Herman G. Fisher, a former BIA contracting officer’s technical representative, was convicted of demanding,
accepting, and receiving a $20,000 bribe from a business owner who was providing portable classrooms to the
BIA through a $5-million contract. Fisher was subsequently sentenced to 15 months of imprisonment, 3 years
of supervised release, and ordered to pay a $1,000 fine.

    As reported in our October 2003 Semiannual Report, Fisher had threatened that he would hold up BIA
payments for work already done by the contractor, cut off future orders, and terminate the contractor, if he was
not paid. Fisher was videotaped demanding and taking the bribes from the businessman at the contractor’s office.

    The U.S. Attorney for the District of New Mexico commented that this particular case, which was a joint
investigation with the FBI, was “a model of cooperation between the agencies involved.”



                          Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                     -13-
Significant Audits Activities and Investigations

Asphalt Company Owner Sentenced in Highway Repair Scheme
                                                                      Asphalt Supply & Service, Inc. (ASSI) and
                                                                   Robert R. Zimmerman, the company’s president,
                                                                   were convicted of submitting a false claim and
                                                                   two counts of making false statements at the con-
                                                                   clusion of an 8-day jury trial in U.S. District
                                                                   Court, Billings, Montana.

                                                                       Zimmerman was sentenced to 18 months of
                                                                   imprisonment, 36 months of supervised proba-
                                                                   tion, and ordered to jointly pay nearly $164,000
                                                                   in restitution with ASSI to the BIA. Zimmerman
                                                                   was also ordered to pay a $300 assessment to the
                                                                   Victims of Crime Fund.

                                                                      As we reported in our October 2003
                                                                   Semiannual Report, the investigation revealed
                                                                   that the company was awarded a $211,000
Photo Courtesy Federal Highway Administration
A highway leading to the Pine Ridge Reservation,
                                                                   contract for the supply and delivery of asphalt
South Dakota                                                       materials to repair a highway on the Pine Ridge
                                                                   Indian reservation.

    Due to circumstances beyond the control of the BIA and ASSI, the delivery of the asphalt materials could
not be made. Nonetheless, ASSI submitted a claim for reimbursement of the cost of the perishable materials it
never procured and justified the claim by presenting altered and fictitious invoices to support its $176,680
claim.

    The U.S. Attorneys Office, naming Zimmerman, ASSI, Connie Zimmerman, and Interstate Asphalt
Company, located in Williston, North Dakota, as defendants, filed a civil complaint, which alleges the defen-
dants presented a false claim, submitted false statements, and conspired to defraud the government in violation
of the False Claims Act. The complaint seeks treble damages totaling more than $490,000.



Former Accounts Payable Officer Sentenced for Embezzling Funds
    Keo Michael Scott, former accounts payable officer, Wichita and Affiliated Tribes in Anadarko, Oklahoma,
was sentenced in U.S. District Court to 6 months of home confinement and 5 years of supervised release. He
was also ordered to pay $28,000 in restitution and perform 200 hours of community service. Scott was
convicted of embezzling $28,000 from a BIA-funded Indian Higher Education account, a program funded
through a Public Law 93-638 contract, and from a children’s clothing financial account, which is tribally
funded.


                            Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                       -14-
                                                         Significant Audits Activities and Investigations

Judge, Court Workers Plead Guilty to Conspiracy, Embezzlement
   Three BIA employees who were indicted in September 2003 on charges including conspiracy, embezzlement,
and making false statements, pleaded guilty and were sentenced. A fourth awaits trial.

    The indictments charged Yvette La Floe Falcon, former Chief Court Clerk; Sharon Malaterre, former Chief
Judge; Stephanie Jay and Angel Poitra, former Court Clerks, Turtle Mountain Band of Chippewa Indian
(TMBCI), with eight felony violations including conspiracy, embezzlement, and false statements. The violations
were related to the theft and embezzlement of TMBCI court fine and restitution payments, theft of travel funds,
and the creation of false travel documents. The TMBCI Court receives approximately $300,000 in annual operat-
ing revenues from the BIA, based on a Public Law 93-638 contract.

  Jay pleaded guilty to theft from an Indian tribal organization, relating to her role in the theft of funds from the
TMBCI Court, and was sentenced to 2 years of probation and ordered to pay $2,100 in restitution.

    Malaterre pleaded guilty to theft from an Indian tribal organization,
relating to her role in the theft of funds from the TMBCI Court. Malaterre
was sentenced to 30 days of imprisonment, 5 months of home detention, 3
years of supervised release, and ordered to pay restitution of about $11,500
to the TMBCI.

    Poitra pleaded guilty to theft from an Indian tribal organization, relating
to her role in the theft of funds from the TMBCI Court, and was sentenced
to 2 years of probation and ordered to pay $1,750 restitution to the TMBCI.

   Trial is pending for La Floe Falcon.

   These convictions were the result of a cooperative investigation
conducted by our office in conjunction with the Department of Justice OIG.


Employee Pleads Guilty to Charges of Receiving Unauthorized Pay
    Daniel T. Spencer, BIA Irrigation Systems Manager, pleaded guilty in U.S. District Court of Montana to
charges of theft of government funds after receiving and spending unearned military pay. Spencer, who was
also a Master Sergeant in the U.S. Army Reserves, received orders placing him on active duty. Although the
orders were quickly canceled, Spencer continued to collect the salary from the military and the BIA for 9
months. During that time, more than $36,000 was deposited into Spencer’s bank account by the military based
on presumed earnings of nearly $46,000.

    Spencer admitted that he knew his orders were canceled and that money was being deposited into his
account; however, he made no effort to return the money or notify officials from the military of the problem.
Instead, Spencer spent the money. Sentencing is pending.


                           Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                      -15-
Significant Audits Activities and Investigations

College Counselor Pleads Guilty to Stealing Radio Station Money
    Denise Brown Eyes, academic                                                   in her capacity as KILI Business
counselor at Oglala Lakota College                                                Manager for the payment of vari-
in Pine Ridge, South Dakota,                                                      ous KILI financial obligations,
pleaded guilty in U.S. Federal                                                    and altered the payee information
Court, District of South Dakota,                                                  in order to cash them. Sentencing
following her indictment for theft.                                               is pending.
She was indicted in connection
with the embezzlement of nearly                                                      KILI radio has annual under-
$33,000 from KILI Radio Station,                                                  writing agreements with the BIA
where she had been employed as a                                                  contract/grant schools within Pine
radio station business manager.                                                   Ridge, South Dakota. These fund
                                                                                  approximately two-thirds of the
    Brown Eyes admitted that                                                      radio station’s budget (P.L. 93-
while employed at KILI Radio                                                      638 contracts). The BIA
Station (Lakota Communications),                                                  Wildland Fire Program also has
she stole 100 personal money                                                      contract agreements with KILI
orders over 13 months. Brown                                                      radio to perform various advertis-
Eyes received these money orders                                                  ing and promotion services.




Office of the Special Trustee for American Indians
Firm Issues Qualified Opinion of Trust Fund Finances Again
    KPMG, an independent certified public accounting firm, issued a qualified opinion on the financial state-
ments of the Office of Special Trustee for American Indians (OST). This is the eighth consecutive time that
the statements have been audited under OIG oversight, where weaknesses in DOI’s systems and procedures,
disagreements with trustees on account balances, and legal claims against the U.S. government made it imprac-
ticable for the auditors to extend auditing procedures to determine the fairness of trust fund balances.

   KPMG identified material weaknesses related to reliance by OST on processing of trust transactions at the
BIA and unresolved financial reporting issues from current and prior periods. KPMG also identified a
reportable condition pertaining to internal controls over information technology systems.




                         Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                    -16-
                                                        Significant Audit Activities and Investigations



                  Bureau of Land Management




                                                                                                  Photo Courtesy BLM
                                     Storage reservoir for water used in production of coalbed methane, a natural gas


BLM’s Process to Approve Gas Drilling Permits Compromised
    Large reserves of natural gas on federal lands in the West, particularly in the Powder River Basin in
Wyoming and Montana, are being brought on line to increase energy production. Much of the Basin’s reserve
is coalbed methane, a natural gas found inside and around coal seams. Water is pumped out of the coal seams
and brought to the surface, which releases the gas, allowing it to be captured in wells. BLM leases federal
lands for the exploration and development of gas and approves applications for permits to drill (APDs).

   Our review of BLM’s efficiency in approving APDs revealed a process severely compromised by two
major impediments: (1) outdated land-use plans that failed to anticipate the degree of coalbed methane
development and (2) a lack of management oversight over the process. The result was a bottlenecked process,
backlogged APDs, public dissatisfaction, litigation, delays in natural gas production, and holdups in the pay-
ment of royalties to federal and state governments.

    We made eight recommendations to streamline the approval process and assist BLM in removing impedi-
ments to processing APDs in an efficient and environmentally responsible manner. BLM concurred with our
recommendations.               Read full report

                         Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                    -17-
Significant Audits Activities and Investigations

Former BLM Program Analyst Sentenced in Embezzlement Case
    Georgette Aguilar-Dixon, a former Fire Management Program
Analyst in BLM’s Carson City, Nevada, office was indicted by
a Federal Grand Jury in Reno, Nevada, on a charge of theft
of government property. An investigation revealed that
Aguilar-Dixon made excessive charges to unknown
and unverifiable vendors on her government credit
card.

    She was sentenced to home confinement
with electronic monitoring for a period of 6
months, 3 years of probation, and ordered
to pay restitution to BLM in the amount
of $58,122. Aguilar-Dixon was also
ordered to pay half of the cost of the electronic
monitoring services and to pay a criminal monetary
penalty of $100. Aguilar-Dixon resigned from her BLM
position in March 2003.




                       Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                  -18-
                                                   Significant Audit Activities and Investigations



                  Bureau of Reclamation

BOR Faces Challenges to Facilitate Water Transfers in Parts of the West

                                                           In some areas of the West, existing supplies of
                                                      water are or will be inadequate to meet demand.
                                                      Explosive population growth and unpredictable and
                                                      prolonged drought pose the potential for major con-
                                                      flicts as farmers, urban areas, and environmental uses
                                                      compete for the same water supplies.

                                                          With nearly every major river system in the West
                                                      already heavily developed and the cost of new storage
                                                      increasingly prohibitive, water transfers – or the con-
                                                      version of water from one use to another – offer the
                             Photo courtesy FWS       best opportunities for reallocating limited supplies
                                                      among existing uses and preventing such conflicts.
Recommendations to BOR
                                                          BOR will be a key player in these transfers. Its
                                                      projects in 17 western states supply about 35 percent
  Based on prior reports, the following               of all water delivered in the West. Much of the water
  recommendations were made to BOR:                   is for agriculture, which is heavily subsidized by the
   Establish a database of projects                   government. Transfers from agriculture use to urban,
   experiencing or expected to experience             or municipal and industrial (M&I), use, in effect,
                                                      reallocate supplies from a subsidized framework to a
   water transfers.
                                                      market-driven one. BOR is expected to recover
   Estimate municipal and industrial demand           appropriate costs from M&I water users.
   in major urban markets near BOR water
   projects.                                              Despite two prior OIG reports on M&I cost recov-
                                                      ery, we found that BOR has yet to establish the
   Periodically review projects experiencing          process necessary to effectively manage water
   water transfers to verify water use.               transfers, in spite of its assurances to the contrary.

   Report the lack of process for water                   We made four recommendations to BOR to
   transfers as a material weakness until a           develop such a process, but BOR disagreed with our
   process is implemented.                            report’s conclusion and recommendations. We have
                                                      referred the report to DOI for resolution.
                                                                                                 Read full report


                    Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                               -19-
Significant Audit Activities and Investigations



                       National Park Service

Information Technology System Vulnerable Despite Improvements
NPS has made some improvements recently, but it still lacks a foundation for security.

    To support its mission, NPS
implemented local area networks in           Areas of IT Security Inadequacy
most of its approximate 400 offices,
program centers, regions and support       The report identified multiple instances of inadequacy in
offices, and park units throughout the     the NPS security program.
United States and the Insular Areas.
                                               NPS had not adequately empowered personnel to fulfill
    These local area networks connect          their assigned IT responsibilities or evaluated
to 13 regional networks and one NPS-           personnel; separated IT duties; included IT security
wide network.                                  duties and responsibilities in position descriptions;
                                               mitigated risks of performing IT functions through
                                               appropriate assignment of position sensitivity levels
    Despite reported improvements,             and subsequent background clearances; and ade-
such as establishing an agency Chief           quately trained IT personnel to fulfill their duties and
Information Officer and implementing           responsibilities.
an Information Technology (IT) asset
management system, NPS still lacked            IT system risks were not sufficiently managed by con-
the basic foundation for an effective          ducting asset valuations to properly categorize systems
IT security program necessary to               as mission critical, assessing risks, developing system
ensure that issued IT security direc-          security plans, and planning for corrective actions.
tives were consistently practiced.
                                               NPS had not effectively managed technical and
                                               physical access controls to safeguard personnel and IT
    NPS agreed with the report’s 18            resources.
recommendations to improve its IT
                  system security.             Changes to operating systems and applications should
                                               be authorized, tested, and approved.
    Read full report
                                               NPS has not ensured that IT services could be
                                               continued in the event of a system failure or disaster.

                                               IT security controls must be implemented throughout
                                               NPS, including incident response capability and a stan-
                                               dardized network security infrastructure.




                         Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                    -20-
                                                         Significant Audits Activities and Investigations

St. Croix National Park Needs to Improve Concession Management
    St. Croix National Park officials did not maintain
complete and accurate records to make sure conces-
sionaires complied with financial and performance
requirements and failed to deposit franchise fees on
time.

    Supporting documentation was unavailable for 25
of 61 franchise fee payments made by concessionaires
in fiscal year 2001, and for 22 of 72 payments made
by concessionaires in fiscal year 2002. In addition,
we found that some of the files did not contain
required documentation on insurance, certifications of
vessel inspections, permits, or annual financial
reports.                                                    Photo Courtesy NPS                   St. Croix National Park

    NPS guidelines require that concessionaires pay a franchise fee of 2 percent of their gross receipts within
15 days after the end of each month. Although the concessionaires paid the fees punctually, the park officials
held the franchise fees an average of 63 days before depositing them in the Federal Reserve. In addition, ade-
quate internal controls were not implemented because fee-collection guidelines were not followed. We made
four recommendations that the Park officials implemented.        Read full report


Contractor Pleads Guilty to Bribing NPS Contracting Official
    Angela Sanchez, a marketing project
manager for Southwest Modular Concepts               Guilty Pleas in Spinoff Cases
(SMC) of El Paso, Texas, pleaded guilty to
one count of conspiracy and bribery of a            New information led to charges against two
public official in U.S. District Court for the      Department of Defense contracting officers.
Western District of Texas. Harmon
Lorenzo Maddox, the owner of SMC,                   Jason Brinning, contracting agent, U.S. Air Force
pleaded guilty to one count of conspiracy           Pleaded guilty for accepting kickbacks from a prime
and bribery of a public official.                   contractor. Sentenced to 3 years probation, ordered to
Sentencing is pending.                              pay $8,500 in restitution and $100 special
                                                    assessment.
    The guilty pleas stem from a bribe
offered for a NPS contract to replace               David Ahumada, contracting agent, U.S. Army
theater seats at the Chamizal National              Pleaded guilty to bribery in regard to soliciting kick-
Memorial in El Paso. Sanchez offered a              backs from a prime contractor. Sentencing is pending.
$4,000 bribe which was paid by Maddox to
a NPS contracting official in exchange for          These pleas were the result of a joint effort between our office
the NPS contract valued at approximately            and the FBI.
$131,330.


                          Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                     -21-
Significant Audits Activities and Investigations



Office of Insular Affairs

Group Indicted on Federal Corruption Charges in the Virgin Islands
    Ashley Andrews, a principal of Global Resources Management (GRM); Ohanio Harris, former special
assistant to the Virgin Islands governor; Alicia Hansen, former Virgin Islands senator; her husband, Esdel
Hansen, former director of utilities for GRM; and Campbell Malone, a certified public accountant who
provided professional services to GRM, were indicted on 16 counts of violating federal and territorial statutes,
including conspiracy to violate federal law, wire fraud, program fraud, bribery, fraudulent claims upon the
Virgin Islands government, and violation of territorial conflict-of-interest statutes.

    The indictment stated that the public sewer
system on St. Croix was in a state of disrepair,
posing severe environmental hazards to the
residents and visitors of St. Croix. The public
sewer system regularly discharged approximately
1.7 million gallons of raw sewage into the sea and
overflowed into the streets of St. Croix. The
sewage contained large amounts of pathogenic
micro-organisms that are extremely harmful to
humans.

    Allegedly, the above-named defendants
conspired with the objective of corruptly obtain-
ing money for GRM. In order to achieve that
objective, the defendants allegedly performed var-
ious tasks on an as-needed basis. According to the indictment, the defendants participated in a scheme that
involved securing a no-bid contract for sewer repair work and generating a fraudulent claim for expenses
incurred in preparing the contract to repair the St. Croix sewer system.

   The DOI, through its Office of Insular Affairs (OIA), has provided the U.S. Virgin Islands Government
approximately $10 million in federal grants in the past 5 years for the design, construction, and maintenance of
wastewater and pollution control programs on the U.S. Virgin Islands.




                         Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                     -22-
                                                    Significant Audit Activities and Investigations




                  U.S. Fish and Wildlife Service

Former FWS Administrative Officer Sentenced in Fraud Case
Investigation revealed the administrator had falsely filed for $70,000 in overtime pay.

    Samuel Lovato, a former administrative officer with FWS was sentenced in U.S. District Court, Santa Fe,
New Mexico, to 6 months of home confinement with electronic monitoring, 5 years of probation, and ordered
to pay nearly $64,000 in restitution. He was convicted on charges that he submitted false claims totaling more
than $70,000 to the FWS.

    As reported in our October 2003 Semiannual Report, Lovato, who was employed at the Ecological
Services Field Office in Albuquerque, New Mexico, pleaded guilty to the charges that he submitted false
claims to the FWS. The plea was a result of an investigation that disclosed that Lovato submitted claims
requesting payment for overtime hours that he never worked. Specifically, we found that on 71 separate occa-
sions between January 1998 and June 2001, Lovato falsely claimed to have worked overtime – for a total of
2,144 hours. As a result of these claims, Lovato was paid more than $54,000.

   Our investigation found that Lovato was responsible for preparing the time and attendance reports for all
employees at the New Mexico Ecological Services Field Office, including himself, and therefore was able to
add overtime hours to his own report. We also found that he obtained the computer password of the supervisor
who approved the reports, and thus was able to approve his own falsified claims.

   In addition, the investigation disclosed that Lovato submitted false reimbursement vouchers totaling nearly
$16,000 to an FWS petty cash fund that he administered. These vouchers were supported by invoices that he
had fabricated, or by invoices that he had already submitted for reimbursement.

                                                         Shortly after the initiation of the investigation, FWS
                                                     instituted procedures to prevent this type of fraud from
                                                     recurring, including establishing protocols to better safe-
                                                     guard computer passwords and the payroll system. In
                                                     addition, many petty cash funds were eliminated or reduced
                                                     and alternate methods of payment for small purchases and
                                                     miscellaneous expenses were implemented.

                                                        Lovato resigned from his FWS position after the
                                                     investigation was initiated.



                     Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                -23-
Significant Audit Activities and Investigations

FWS Employee Sentenced for Embezzling More Than $600,000
    U.S. District Court of Southern District of Mississippi sentenced Debra Strickland, FWS administrative
officer, to 33 months of imprisonment, for embezzling nearly $638,000 in federal funds from the Lower
Mississippi River Conservation Committee. In addition, Strickland will be required to pay restitution for the
full amount of the embezzled funds and serve 5 years of supervised release after her incarceration.

    Strickland, who was allowed to open bank accounts for the Lower Mississippi River Conservation
Committee, was the only signatory and was not accountable to anyone for these funds. The investigation
revealed that Strickland was previously suspended for violations regarding the use of her government credit
card, but was still allowed to continue her role as the Committee’s treasurer. The project coordinator never
reviewed the bank statements or analyzed the Committee’s expenditures. As a result, Strickland was able to
continuously embezzle funds from 1998 to 2003 without being detected, including more than $234,000 in one
year alone.

                                              The Lower Mississippi River Conservation Committee
                                              is a cooperative, nonprofit organization of federal and
                                              state agencies formed to promote wise use of the natural
                                              resources of the lower Mississippi River through planning,
                                              management, information sharing, public education
                                              advocacy, and research. The majority of the funding for
                                              the Committee was derived from a $733,000 FWS grant.



    In its Southeast region, FWS has more than $12 million in similar cooperative agreements that may be
exposed and at risk of similar fraudulent activity. Lack of management oversight and internal control weak-
nesses contributed to the embezzlement of the FWS funds. Accordingly, our office issued a management advi-
sory to assist the FWS in preventing and detecting future fraud of this nature and to enhance security of federal
funds. Our investigation also prompted FWS to take administrative action against the management responsible
for the oversight of Strickland and the Committee’s financial operations.



Audits of State Grants Find Potential Reductions of $3.2 Million
    Audits of grants that the FWS awarded to states for sport fish and wildlife restoration projects revealed a
potential savings of more than $3 million. The grants finance up to 75 percent of state-sponsored projects, such
as developing sites for boating access and acquiring and managing natural habitats. States cover the full cost
of an approved grant project and then apply to FWS for reimbursement.

   During audits of grants in six states and an Insular Area government, we questioned the eligibility for reim-
bursements of $1,648,980 and identified income of $1,552,802 from grant-supported activities. The income
could be used to defray program costs.


                         Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                    -24-
                                                                   Significant Audits Activities and Investigations

            A breakdown of the significant issues disclosed in the audits follows. FWS is working with
            the states to resolve these matters.

              The state of Louisiana could not support $97,064 of in-kind
              contributions, charged $52,540 for purchases not related to the
Read full
report
              program, and claimed $17,859 for a project that was not
              completed. Also, the state did not report program income of $479,657
              for revenues earned from the sale of timber, land rentals, alligator har-
              vesting, oil and gas leasing, seismic testing, and granting rights of way.

              The state of Indiana claimed $2,230 for a project not covered by the grant and did not report program
Read full     income of $70,042. The state also operated a correctional facility on land purchased with grant funds, which
report        was inconsistent with the purpose for which the land was originally acquired.

              The state of Nebraska could not support in-kind contributions of $11,138 and an expenditure of $1,612. In
Read full     addition, the state did not report program income of $346,872 and did not account for and report as program
report        income the value of work provided by lessees in lieu of rental payments.

              The state of Washington omitted $36,019 in program income from one wildlife grant and failed to report
Read full
              program income on six interim Financial Status Reports for another wildlife grant, claimed costs as in-kind
report        contributions for the aquatic education program based on unsupported estimates of volunteer hours, did not
              report regional wildlife managers’ salaries and benefits according to projects actually worked on, and both
                                                            understated and overstated its applicable direct and overhead
                                                            costs on its claims for reimbursement.

                                                            The state of Tennessee claimed $350,815 for costs incurred
                                                            outside of project periods and could not support costs of        Read full
                                                            $165,141. In addition, the state overstated the number of        report
                                                            hunting and fishing license holders. FWS uses the number of
                                                            license holders to determine annual grant funding allocations to
                                                            all states.

                                                           The state of Florida claimed ineligible campground construc-
                                                           tion costs of $504,582, charged costs of $179,574 to the wrong
              project, incurred costs of $156,981 outside of a grant’s period of performance, claimed costs of $32,789 that
Read full     were not incurred, and sought reimbursement for costs of $21,585 for awards to volunteers who were ineli-
report        gible under state law. In addition, we found that the state did not report program income of $620,212, and
              used about a third of a 66,000-acre parcel purchased for a wildlife management area for public recreation.

              The government of Guam overcharged for indirect costs by $15,659, obtained reimbursements of $33,703
              in excess of actual costs incurred, and charged $5,708 for ineligible procurements.
Read full
report




                                     Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                                -25-
Appendix 1

                     Summary of Audit and Related Activities
                  From October 1, 2003, Through March 31, 2004

                                                              AUDITS PERFORMED BY:

                                                               OTHER
                                                              FEDERAL       NON-FEDERAL
                                                             AUDITORS         AUDITORS
                                                             (With Review (With Review and
                                                           and Processing by Processing by
                                         OIG STAFF            OIG Staff)       OIG Staff)

                                       Internal, Grant
                                        and Contract         Contract and
                                           Audits            Grant Audits        Single Audits   TOTAL


REPORTS ISSUED TO:


Department/Office of the Secretary             11                   0                   2         13

Fish and Wildlife and Parks                    15                   0                   17        32

Indian Affairs                                 6                    0                  165        171

Insular Affairs                                1                    0                   4          5

Land and Minerals Management                   7                    0                   7         14

Water and Science                              5                    0                   10        15

Other Federal Agencies                         2                    0                   0          2




TOTAL REPORTS ISSUED                           47                   0                  205        252




                         Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                    -26-
                                                                                                Appendix 2

                        Reports Issued or Processed
             During the 6-Month Period Ended March 31, 2004
This listing includes all internal reports (internal audits, advisory reports, assessments, and evaluations),
contract and grant audits, and single audit reports issued during the 6-month period ended March 31, 2004. It
provides report number, title, issue date, and monetary amounts identified in each report (*Funds To Be Put To
Better Use, ** Questioned Cost, *** Unsupported Cost, and **** Lost or Potential Additional Revenues).


                                       INTERNAL REPORTS
Bureau of Indian Affairs

W-FL-BIA-0047-2002           School Construction Program, Bureau of Indian Affairs (02/24/2004) *$4,200,000

E-IN-BIA-0069-2003           Independent Auditors' Report on the Bureau of Indian Affairs' Financial
                             Statements for Fiscal Years 2003 and 2002 (02/25/2004)

C-IN-BIA-0014-2004           Improvements Needed in the Bureau of Indian Affairs Process for Conducting
                             Background Investigations of Indian Education Employees (03/05/2004)

C-IN-BIA-0007-2003           Bureau of Indian Affairs, Office of Indian Education Programs, Central Office
                             Management of Administrative Funds (03/30/2004)

Bureau of Land Management

C-IN-BLM-0076-2003           Independent Auditors' Report on the Bureau of Land Management's Financial
                             Statements for Fiscal Years 2003 and 2002 (12/10/2003)

C-IN-BLM-0021-2004           Management Issues Identified During the Audit of the Bureau of Land
                             Management's Fiscal Year 2003 Financial Statements (12/30/2003)

W-IN-BLM-0009-2003           Audit of Oil and Gas Permitting Process, Bureau of Land Management
                             (02/13/2004) ****$52,000,000

Bureau of Reclamation

W-FL-BOR-0121-2002           Municipal and Industrial Water Transfers, Bureau of Reclamation (11/26/2003)

C-IN-BOR-0077-2003           Independent Auditors' Report on the Bureau of Reclamation's Financial
                             Statements for Fiscal Years 2003 and 2002 (12/08/2003)

C-IN-BOR-0022-2004           Management Issues Identified During the Audit of the Bureau of Reclamation's
                             Fiscal Year 2003 Financial Statements (12/19/2003)

                         Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                    -27-
Appendix 2

Departmental Offices

E-IN-DMO-0068-2003       Independent Auditors' Report on the Departmental Offices' Financial Statements
                         for Fiscal Years 2003 and 2002 (12/19/2003)

E-IN-DMO-0034-2004       Management Issues Identified During the Audit of the Departmental Offices'
                         Fiscal Year 2003 Financial Statements (01/21/2004)

Minerals Management Service

E-IN-MMS-0066-2003       Independent Auditors' Report on the Minerals Management Service's Financial
                         Statements for Fiscal Years 2003 and 2002 (12/09/2003)

E-IN-MMS-0036-2004       Management Issues Identified During the Audit of the Minerals Management
                         Service's Fiscal Year 2003 Financial Statements (01/07/2004)

Multi-Office Audit

E-IN-MOA-0002-2004-M     District of Columbia Water and Sewer Authority Payments for July 1, 2003,
                         Through September 30, 2003 (11/06/2003)

X-IN-MOA-0080-2003       Independent Auditors' Report on the U.S. Department of the Interior's Fiscal Year
                         2003 Annual Report on Performance and Accountability (11/28/2003)

X-IN-MOA-0042-2004       Agreed-Upon Procedures for Intragovernmental Activity and Balances for Fiscal
                         Year 2003 (02/03/2004)

C-IN-MOA-0042-2003       Fleet Management Operations U.S. Department of the Interior (02/09/2004)
                         *$34,019,271

X-IN-MOA-0081-2003       Agreed-Upon Procedures for FACTS I Data Verification for Fiscal Year 2003
                         (02/10/2004)

X-IN-MOA-0043-2003       Management Issues Identified During the Audit of the Department of the
                         Interior's Fiscal Year 2003 Financial Statements (02/12/2004)

E-IN-MOA-0038-2004       District of Columbia Water and Sewer Authority Payments for October 1, 2003,
                         Through December 31, 2003 (02/13/2004)

E-IN-MOA-0097-2003-D     “Joint Ventures: Partners in Stewardship” Conference Held in Los Angeles,
                         California, From November 17 to November 20, 2003 (03/18/2004)



                     Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                -28-
                                                                                             Appendix 2

Multi-Office Audit

S-IN-MOA-0088-2002         Improvements Needed in Developing and Reporting on GPRA Performance
                           Indicators, Department of the Interior (03/31/2004)


National Park Service

E-IN-NPS-0067-2003         Independent Auditors' Report on the National Park Service's Financial Statements
                           for Fiscal Years 2003 and 2002 (12/22/2003)

V-IN-NPS-0004-2003-A       Concession Management and Fee Collection Operations, St. Croix National Park,
                           National Park Service (12/30/2003) ****$901

E-IN-NPS-0037-2004         Management Issues Identified During the Audit of the National Park Service's
                           Fiscal Year 2003 Financial Statements (01/07/2004)

E-EV-NPS-0053-2004         Review of the National Park Service Implementation of the General Accounting
                           Office Recommendations to Improve Travel Cost Management (03/18/2004)

A-IN-NPS-0074-2003         Improvements Needed in Managing Information Technology System Security,
                           National Park Service (03/29/2004)


Office of Surface Mining Reclamation and Enforcement

C-IN-OSM-0079-2003         Independent Auditors' Report on the Office of Surface Mining Reclamation and
                           Enforcement's Financial Statements for Fiscal Years 2003 and 2002 (12/09/2003)

C-IN-OSM-0024-2004         Management Issues Identified During the Audit of the Office of Surface Mining
                           Reclamation and Enforcement's Fiscal Year 2003 Financial Statements
                           (12/30/2003)

Office of the Special Trustee for American Indians

Q-IN-OST-0075-2003         Independent Auditors' Report on the Tribal and Other Trust Funds and Individual
                           Indian Monies Trust Funds Financial Statements for Fiscal Years 2003 and 2002
                           Managed by the Office of the Special Trustee for American Indians (12/09/2003)

Q-IN-OST-0025-2004         Management Issues Identified During the Audit of the Office of the Special
                           Trustee for American Indians' Fiscal Year 2003 Financial Statements (12/22/2003)




                       Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                  -29-
Appendix 2

U.S. Fish and Wildlife Service

E-EV-FWS-0116-2003        Briefing on U.S. Fish and Wildlife Service Cost Allocation Methodology
                          (12/10/2003)

C-IN-FWS-0078-2003        Independent Auditors' Report on the U.S. Fish and Wildlife Service's Financial
                          Statements for Fiscal Years 2003 and 2002 (12/22/2003)

C-IN-FWS-0023-2004        Management Issues Identified During the Audit of the U.S. Fish and Wildlife
                          Service's Fiscal Year 2003 Financial Statements (12/23/2003)


U.S. Geological Survey

E-IN-GSV-0070-2003        Independent Auditors' Report on the U.S. Geological Survey's Balance Sheet for
                          Fiscal Year 2003 (12/09/2003)

E-IN-GSV-0035-2004        Management Issues Identified During the Audit of the U.S. Geological Survey's
                          Fiscal Year 2003 Balance Sheet (01/07/2004)

U.S. Virgin Islands

V-IN-VIS-0041-2004        Verification of Watch Quota and Jewelry Quota Data for Calendar Year 2003
                          Submitted by Firms Located in the U.S. Virgin Islands (03/10/2004)



                          CONTRACT AND GRANT AUDITS

U.S. Fish and Wildlife Service

R-GR-FWS-0021-2003        Costs Claimed by the State of Indiana, Department of Natural Resources, Under
                          Federal Assistance Grants From the U.S. Fish and Wildlife Service From July 1,
                          2000, Through June 30, 2002 (12/22/2003) **$2,230

R-GR-FWS-0023-2003        Costs Claimed by the State of Louisiana, Department of Wildlife and Fisheries,
                          Under Federal Assistance Grants From the U.S. Fish and Wildlife Service From
                          July 1, 2000, Through June 30, 2002 (12/22/2003) **$167,463

R-GR-FWS-0027-2003        Costs Claimed by the Tennessee Wildlife Resources Agency, Under Federal
                          Assistance Grants From the U.S. Fish and Wildlife Service From July 1, 2000, to
                          June 30, 2002 (01/08/2004) **$515,956


                      Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                 -30-
                                                                                           Appendix 2

U.S. Fish and Wildlife Service

R-GR-FWS-0024-2003       Costs Incurred by the State of Nebraska Game and Parks Commission, Under
                         Federal Assistance Grants From the U.S. Fish and Wildlife Service From July 1,
                         2000, Through June 30, 2002 (01/09/2004) **$11,138

R-GR-FWS-0020-2003       U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                         State of Florida Fish and Wildlife Conservation Commission From July 1, 2000,
                         Through June 30, 2002 (02/25/2004) **$895,511

R-GR-FWS-0029-2004       U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                         Government of Guam, Department of Agriculture, Division of Aquatic and
                         Wildlife Resources From October 1, 1999, to September 30, 2000 (03/04/2004)
                         **$55,070

R-GR-FWS-0029-2003       U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                         State of Washington, Department of Fish and Wildlife From July 1, 2000,
                         Through June 30, 2002 (03/04/2004)


Federal Communications Commission

R-GR-FCC-0006-2003       Final Report on Audit of the E-Rate Program at Santa Fe Indian School,
                         Incorporated (11/03/2003)

R-GR-FCC-0005-2003       Final Report on Audit of the E-Rate Program at Navajo Preparatory School,
                         Incorporated (01/07/2004)



                                        SINGLE AUDITS

Bureau of Indian Affairs

2004-A-003               Thlopthlocco Tribal Town, Fiscal Year Ended September 30, 1999 (10/31/2003)
                         **$200,070

2004-A-004               Northway Village Council, Fiscal Year Ended December 31, 2000 (10/31/2003)
                         **$11,389

2004-A-005               Three Affiliated Tribes, Fiscal Year Ended September 30, 2001 (10/31/2003)




                     Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                -31-
Appendix 2

Bureau of Indian Affairs

R-SA-BIA-0312-2001       Otoe-Missouria Tribe of Indians, Fiscal Year Ended December 31, 2001
                         (10/31/2003) **$40

R-SA-BIA-0411-2001       Santa Ysabel Band of Diegueno Indians, Fiscal Year Ended December 31, 2001
                         (10/31/2003)

R-SA-BIA-0592-2001       Eastern Shoshone Tribe of the Wind River Reservation, Fiscal Year Ended
                         December 31, 2001 (10/31/2003)

R-SA-BIA-0666-1997       Little River Band of Ottawa Indians, Fiscal Year Ended December 31, 1997
                         (10/31/2003)

R-SA-BIA-0517-2000       Wounded Knee District School, Fiscal Year Ended June 30, 2000 (11/03/2003)

R-SA-BIA-0480-2002       Little Singer Community School Board, Incorporated and Little Singer Junior
                         High School, Fiscal Year Ended June 30, 2002 (11/03/2003)

R-SA-BIA-0293-2002       Northern Cheyenne Tribal School, Fiscal Year Ended June 30, 2002 (11/03/2003)
                         **$18,410

R-SA-BIA-0660-2002       American Indian Graduate Center, Incorporated, Fiscal Year Ended June 30, 2002
                         (11/03/2003)

R-SA-BIA-0569-2002       Chief Leschi Schools, Incorporated, Fiscal Year Ended June 30, 2002
                         (11/03/2003)

R-SA-BIA-0547-2002       Sicangu Oyate Ho, Incorporated, Fiscal Year Ended June 30, 2002 (11/03/2003)

R-SA-BIA-0636-2002       Mentasta Traditional Council, Fiscal Year Ended September 30, 2002
                         (11/03/2003)

R-SA-BIA-0142-2002       Fort Mojave Indian Tribe, Fiscal Year Ended September 30, 2002 (11/03/2003)

R-SA-BIA-0310-2002       Orutsararmuit Native Council, Fiscal Year Ended December 31, 2002
                         (11/03/2003)

R-SA-BIA-0306-2002       Ojibwa Indian School, Fiscal Year Ended June 30, 2002 (11/03/2003) **$7,000

R-SA-BIA-0024-2002       Standing Rock Community Grant School, Fiscal Year Ended June 30, 2002
                         (11/03/2003)



                     Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                -32-
                                                                                           Appendix 2

Bureau of Indian Affairs

R-SA-BIA-0673-2001       Middletown Rancheria Band of Pomo Indians, Fiscal Year Ended December 31,
                         2001 (11/05/2003)

B-SA-BIA-0087-2004       Oglala Sioux Tribe,Year Ended December 31, 2000 (11/21/2003) **$8,008,843

B-SA-BIA-0062-2004       Omaha Tribe of Nebraska, Fiscal Year Ended September 30, 1998 (11/25/2003)
                         **$1,205,402

B-SA-BIA-0065-2004       Ch'ooshgai Community School, Fiscal Year Ended June 30, 2001 (11/26/2003)

B-SA-BIA-0064-2004       Ponca Tribe of Nebraska, Fiscal Year Ended September 30, 2002 (11/26/2003)

B-SA-BIA-0040-2004       Pechanga Band of Luiseno Mission Indians of the Pechanga Indian Reservation,
                         Fiscal Year Ended September 30, 2002 (11/26/2003)

B-SA-BIA-0025-2004       Enterprise Rancheria of Maidu Indians of California, Fiscal Year Ended
                         December 31, 2002 (11/26/2003)

B-SA-BIA-0061-2004       Pascua Yaqui Tribe of Arizona, Fiscal Year Ended September 30, 2002
                         (11/26/2003)

B-SA-BIA-0075-2004       College of the Menominee Nation, Fiscal Year Ended June 30, 2002 (11/26/2003)

B-SA-BIA-0006-2004       Lower Sioux Indian Community, Fiscal Year Ended September 30, 2002
                         (11/26/2003)

B-SA-BIA-0014-2004       Southern Ute Indian Tribe, Fiscal Year Ended September 30, 2002 (11/26/2003)

B-SA-BIA-0047-2004       Redding Rancheria, Fiscal Year Ended December 31, 2002 (11/26/2003)

B-SA-BIA-0058-2004       Paiute-Shoshone Indians of the Bishop Community of the Bishop Colony, Fiscal
                         Year Ended December 31, 2001 (11/26/2003)

B-SA-BIA-0053-2004       Turtle Mountain Band of Chippewa Indians, Fiscal Year Ended September 30,
                         2002 (11/26/2003) **$213,659

B-SA-BIA-0016-2004       Huron Potawatomi, Incorporated, Fiscal Year Ended December 31, 2002
                         (11/28/2003)

B-SA-BIA-0041-2004       Flandreau Santee Sioux Tribe, Fiscal Year Ended December 31, 2002
                         (12/01/2003)


                     Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                -33-
Appendix 2

Bureau of Indian Affairs

B-SA-BIA-0032-2004       Yavapai-Apache Nation, Fiscal Year Ended December 31, 2002 (12/01/2003)

B-SA-BIA-0039-2004       Nazlini Community School, Incorporated and Nazlini Community Junior High
                         School, Fiscal Year Ended June 30, 2002 (12/04/2003)

B-SA-BIA-0082-2004       Bay Mills Indian Community, Fiscal Year Ended December 31, 2002
                         (12/04/2003)

B-SA-BIA-0037-2004       Twenty-Nine Palms Band of Mission Indians, Fiscal Year Ended December 31,
                         2002 (12/04/2003)

B-SA-BIA-0009-2004       Oglala Sioux Tribal Department of Public Safety, Fiscal Year Ended
                         September 30, 2001 (12/09/2003) **$5,490

B-SA-BIA-0036-2004       Red Cliff Band of Lake Superior Chippewa, Fiscal Year Ended September 30,
                         2002 (12/09/2003) **$4,010

B-SA-BIA-0048-2004       Poarch Band of Creek Indians, Fiscal Year Ended December 31, 2002
                         (12/10/2003)

B-SA-BIA-0056-2004       Little Wound School Board, Incorporated, Fiscal Year Ended June 30, 2002
                         (12/17/2003)

B-SA-BIA-0020-2004       Native Village of Unalakleet, Fiscal Year Ended September 30, 2002 (12/17/2003)

B-SA-BIA-0045-2004       Rosebud Sioux Tribe, Fiscal Year Ended September 30, 2001 (12/17/2003)

B-SA-BIA-0008-2004       Saint Regis Mohawk Tribe, Fiscal Year Ended December 31, 2001 (12/19/2003)

B-SA-BIA-0096-2004       Kaibab Band of Paiute Indians, Fiscal Year Ended December 31, 2002
                         (12/19/2003)

B-SA-BIA-0110-2004       Kaw Nation of Oklahoma, Fiscal Year Ended December 31, 2002 (12/19/2003)

B-SA-BIA-0002-2004       Standing Rock Sioux Tribe, Fiscal Year Ended September 30, 2002 (12/19/2003)

B-SA-BIA-0033-2004       Gila River Indian Community, Fiscal Year Ended September 30, 2002
                         (12/19/2003)

B-SA-BIA-0095-2004       Augustine Band of Cahuilla Mission Indians, Fiscal Year Ended December 31,
                         2002 (12/19/2003)


                     Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                -34-
                                                                                           Appendix 2

Bureau of Indian Affairs

B-SA-BIA-0063-2004       Standing Rock Sioux Tribe, Fiscal Year Ended September 30, 2001 (12/19/2003)

B-SA-BIA-0022-2004       Yavapai-Prescott Indian Tribe, Fiscal Year Ended December 31, 2002
                         (12/19/2003)

B-SA-BIA-0007-2004       Lytton Band of Pomo Indians, Fiscal Year Ended December 31, 2001
                         (12/19/2003)

B-SA-BIA-0057-2004       Oglala Lakota College, Fiscal Year Ended September 30, 2002 (12/19/2003)
                         **$3,199

B-SA-BIA-0038-2004       Cuyapaipe Band of Mission Indians, Fiscal Year Ended December 31, 2002
                         (12/19/2003)

B-SA-BIA-0043-2004       Ch'ooshgai Community School, Fiscal Year Ended June 30, 2002 (12/19/2003)

B-SA-BIA-0015-2004       Cher-Ae Heights Indian Community of Trinidad Rancheria, Fiscal Year Ended
                         December 31, 2002 (12/19/2003)

B-SA-BIA-0077-2004       North Fork Mono Rancheria, Fiscal Year Ended September 30, 2002
                         (12/19/2003)

B-SA-BIA-0111-2004       Sac and Fox Nation, Fiscal Year Ended September 30, 2002 (12/20/2003)

B-SA-BIA-0035-2004       Oglala Sioux Tribal Department of Public Safety, Fiscal Year Ended
                         September 30, 2002 (12/22/2003)

B-SA-BIA-0059-2004       Pyramid Lake Paiute Tribe, Fiscal Year Ended December 31, 2001 (12/30/2003)

B-SA-BIA-0021-2004       St. Michaels Association for Special Education, Incorporated, Fiscal Year Ended
                         September 30, 2002 (12/30/2003)

B-SA-BIA-0010-2004       San Carlos Apache Tribe, Fiscal Year Ended September 30, 2002 (12/31/2003)

B-SA-BIA-0072-2004       Tonto-Apache Tribe, Fiscal Year Ended December 31, 1999 (12/31/2003)

B-SA-BIA-0011-2004       Las Vegas Paiute Tribe, Fiscal Year Ended December 31, 2002 (12/31/2003)

B-SA-BIA-0001-2004       National Iron Workers Training Program for American Indians, Incorporated,
                         Fiscal Year Ended September 30, 2002 (12/31/2003) **$33,276



                     Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                -35-
Appendix 2

Bureau of Indian Affairs

B-SA-BIA-0078-2004       Jamestown S'Klallam Indian Tribe, Fiscal Year Ended September 30, 2002
                         (12/31/2003)

B-SA-BIA-0004-2004       Puyallup Tribe of Indians, Fiscal Year Ended September 30, 1999 (01/05/2004)

B-SA-BIA-0094-2004       Chippewa Cree Tribe, Fiscal Year Ended September 30, 2002 (01/05/2004)
                         **$25,904

B-SA-BIA-0023-2004       Tohono O'odham Nation, Fiscal Year Ended September 30, 2002 (01/05/2004)

B-SA-BIA-0097-2004       Resighini Rancheria, Fiscal Year Ended December 31, 2002 (01/05/2004)

B-SA-BIA-0108-2004       Kin Dah Lichi'i Olta', Fiscal Year Ended June 30, 2001 (01/05/2004) **$190,836

B-SA-BIA-0042-2004       Jicarilla Apache Nation, Fiscal Year Ended December 31, 2002 (01/05/2004)
                         **$996,240

B-SA-BIA-0109-2004       Pueblo of Tesuque, Fiscal Year Ended December 31, 2002 (01/05/2004)

B-SA-BIA-0117-2004       Makah Tribal Council, Fiscal Year Ended December 31, 2002 (01/07/2004)

B-SA-BIA-0118-2004       Developing Innovations in Navajo Education, Incorporated, Fiscal Year Ended
                         December 31, 2002 (01/07/2004)

B-SA-BIA-0129-2004       Pit River Tribe, Fiscal Year Ended December 31, 2002 (01/07/2004)

B-SA-BIA-0127-2004       Big Pine Paiute Tribe of the Owens Valley, Fiscal Year Ended December 31,
                         2002 (01/07/2004)

B-SA-BIA-0131-2004       Tonto-Apache Tribe, Fiscal Year Ended December 31, 2000 (01/09/2004)

B-SA-BIA-0067-2004       Otoe-Missouria Tribe of Indians, Fiscal Year Ended December 31, 2000
                         (01/09/2004)

B-SA-BIA-0073-2004       Wingate Board of Education, Inc., Fiscal Year Ended June 30, 2002 (01/09/2004)
                         **$369,235

B-SA-BIA-0114-2004       Yurok Tribe, Fiscal Year Ended September 30, 2002 (01/09/2004) **$906,673

B-SA-BIA-0084-2004       Stockbridge-Munsee Community, Fiscal Year Ended September 30, 2002
                         (01/12/2004)


                     Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                -36-
                                                                                           Appendix 2

Bureau of Indian Affairs

B-SA-BIA-0104-2004       Pueblo de San Ildefonso, Fiscal Year Ended December 31, 2002 (01/12/2004)

B-SA-BIA-0018-2004       Mooretown Rancheria, Fiscal Year Ended December 31, 2002 (01/13/2004)

B-SA-BIA-0092-2004       Rough Rock School Board, Incorporated, Fiscal Year Ended June 30, 2001
                         (01/16/2004)

B-SA-BIA-0085-2004       Fort McDowell Yavapai Nation, Fiscal Year Ended September 30, 2002
                         (01/20/2004)

B-SA-BIA-0086-2004       Fond du Lac Reservation, Fiscal Year Ended September 30, 2002 (01/20/2004)

B-SA-BIA-0003-2004       Mississippi Band of Choctaw Indians, Fiscal Year Ended September 30, 2002
                         (01/20/2004)

B-SA-BIA-0139-2004       Crow Tribe of Indians, Fiscal Year Ended September 30, 2002 (01/22/2004)

B-SA-BIA-0159-2004       Confederated Tribes of the Chehalis Reservation, Year Ended December 31, 2001
                         (01/20/2004)

B-SA-BIA-0167-2004       Confederated Tribes of the Grand Ronde Community of Oregon, Year Ended
                         December 31, 2002 (01/22/2004)

B-SA-BIA-0169-2004       Aroostook Band of Micmacs, Year Ended December 31, 2002 (01/22/2004)

B-SA-BIA-0013-2004       Fort Belknap Indian Community, Fiscal Year Ended September 30, 2002
                         (01/22/2004)

B-SA-BIA-0130-2004       Central Council Tlingit & Haida Indian Tribes of Alaska, Fiscal Year Ended
                         December 31, 2002 (01/23/2004)

B-SA-BIA-0134-2004       Native Village of Unalakleet, Fiscal Year Ended September 30, 2001 (01/23/2004)

B-SA-BIA-0123-2004       Agua Caliente Band of Cahuilla Indians, Special Revenue, Fiscal Year Ended
                         September 30, 2002 (01/23/2004) **$140,116

B-SA-BIA-0160-2004       Northwest Indian College, Year Ended June 30, 2002 (01/23/2004)

B-SA-BIA-0116-2004       San Juan Pueblo, Fiscal Year Ended December 31, 2002 (01/23/2004)

B-SA-BIA-0066-2004       Hoopa Valley Tribe, Fiscal Year Ended September 30, 2002 (01/23/2004)


                     Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                -37-
Appendix 2

Bureau of Indian Affairs

B-SA-BIA-0112-2004       Burns-Paiute Tribe, Fiscal Year Ended December 31, 2002 (01/23/2004)

B-SA-BIA-0105-2004       Tunica-Biloxi Tribe, Fiscal Year Ended December 31, 2002 (01/23/2004)

B-SA-BIA-0164-2004       Ottawa Tribe of Oklahoma, Fiscal Year Ended September 30, 2002 (01/23/2004)
                         **$293,776

B-SA-BIA-0125-2004       Otoe-Missouria Tribe of Indians, Fiscal Year Ended December 31, 2002
                         (01/23/2004)

B-SA-BIA-0069-2004       Big Pine Paiute Tribe of the Owens Valley, Fiscal Year Ended December 31,
                         2000 (01/26/2004)

B-SA-BIA-0060-2004       Rock Creek Grant School, Fiscal Year Ended June 30, 2002 (03/04/2004)
                         **$43,395

B-SA-BIA-0122-2004       Chickaloon Village Traditional Council, Fiscal Year Ended September 30, 2002
                         (03/04/2004)

B-SA-BIA-0154-2004       Swinomish Indian Tribal Community, Year Ended December 31, 2002
                         (03/04/2004)

B-SA-BIA-0120-2004       Lummi Indian Business Council, Fiscal Year Ended December 31, 2002
                         (03/04/2004)

B-SA-BIA-0150-2004       MNI Sose Intertribal Water Rights Coalition, Year Ended December 31, 2001
                         (03/04/2004)

B-SA-BIA-0157-2004       Cheyenne River Sioux Tribe, Fiscal Year Ended September 30, 2002
                         (03/04/2004)

B-SA-BIA-0136-2004       Joint Tribal Council of the Passamauquoddy Tribe, Fiscal Year Ended
                         September 30, 2001 (03/04/2004)

B-SA-BIA-0146-2004       Pueblo of Zia, Year Ended December 31, 2002 (03/04/2004)

B-SA-BIA-0145-2004       Aleut Community of St. Paul, Fiscal Year Ended September 30, 2001 (03/05/2004)

B-SA-BIA-0163-2004       Native Village of Port Heiden, Fiscal Year Ended September 30, 2002
                         (03/05/2004) **$38,000



                     Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                -38-
                                                                                           Appendix 2

Bureau of Indian Affairs

B-SA-BIA-0128-2004       Chenega IRA Council, Fiscal Year Ended December 31, 2002 (03/05/2004)

B-SA-BIA-0019-2004       Native Village of Gambell, Fiscal Year Ended December 31, 2002 (03/05/2004)
                         **$352,109

B-SA-BIA-0026-2004       Native Village of Afognak, Fiscal Year Ended December 31, 2002 (03/05/2004)

B-SA-BIA-0005-2004       Mille Lacs Band of Chippewa Indians, Fiscal Year Ended September 30, 2001
                         (03/05/2004)

B-SA-BIA-0012-2004       Leech Lake Band of Ojibwe, Fiscal Year Ended June 30, 2002 (03/05/2004)
                         **$9,999

B-SA-BIA-0124-2004       Pueblo of Acoma, Fiscal Year Ended December 31, 2002 (03/05/2004)

B-SA-BIA-0144-2004       Emmonak Tribal Council, Year Ended December 31, 2002 (03/05/2004)
                         **$27,783

B-SA-BIA-0107-2004       Havasupai Tribe, Fiscal Year Ended September 20, 2001 (03/05/2004) **$7,935

B-SA-BIA-0161-2004       Quileute Tribe, Fiscal Year Ended September 30, 2002 (03/05/2004)

B-SA-BIA-0141-2004       Omaha Tribe of Nebraska, Fiscal Year Ended September 30, 2001 (03/05/2004)
                         **$21,219

B-SA-BIA-0074-2004       Pilot Point Traditional Council, Fiscal Year Ended September 30, 2002
                         (03/05/2004)

B-SA-BIA-0113-2004       Big Sandy Rancheria, Fiscal Year Ended December 31, 2002 (03/05/2004)
                         **$1,560

B-SA-BIA-0140-2004       Big Pine Paiute Tribe of the Owens Valley, Year Ended December 31, 2001
                         (03/09/2004)

B-SA-BIA-0187-2004       Sicangu Owayawa Oti (Rosebud Dormitory) Year Ended June 30, 2003
                         (03/09/2004)

B-SA-BIA-0070-2004       Yerington Paiute Tribe, Fiscal Year Ended December 31, 2002 (03/09/2004)

B-SA-BIA-0091-2004       Pueblo of Isleta, Fiscal Year Ended December 31, 2001 (03/09/2004)



                     Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                -39-
Appendix 2

Bureau of Indian Affairs

B-SA-BIA-0115-2004       Assiniboine and Sioux Tribes, Fiscal Year Ended September 30, 2002
                         (03/09/2004) **$77,493

B-SA-BIA-0121-2004       Skokomish Indian Tribe, Fiscal Year Ended September 30, 2002 (03/09/2004)

B-SA-BIA-0126-2004       Knik Tribal Council, Fiscal Year Ended June 30, 2002 (03/09/2004)

B-SA-BIA-0132-2004       Nanwalek IRA Council, Fiscal Year Ended September 30, 2002 (03/09/2004)

B-SA-BIA-0137-2004       Fort Independence Indian Community of Paiute Indians of the Fort Independence
                         Reservation, Fiscal Year Ended December 31, 2002 (03/09/2004)

B-SA-BIA-0148-2004       Dry Creek Rancheria Band of Pomo Indians, Fiscal Year Ended December 31,
                         2001 (03/09/2004)

B-SA-BIA-0166-2004       Tuolumne Band of Me-Wuk Indians, Year Ended December 31, 2002 (03/09/2004)

B-SA-BIA-0194-2004       Sauk-Suiattle Indian Tribe, Year Ended December 31, 2002 (03/09/2004)

B-SA-BIA-0196-2004       Community Council Grant Fund of the Prairie Island Indian Community, Year
                         Ended December 31, 2001 (03/09/2004)

B-SA-BIA-0199-2004       Rocky Mountain College, Fiscal Year Ended June 30, 2003 (03/09/2004)

B-SA-BIA-0188-2004       Bridgeport Paiute Indian Colony, Year Ended December 31, 2001 (03/10/2004)

B-SA-BIA-0197-2004       Omaha Tribe of Nebraska, Fiscal Year Ended September 30, 2000 (03/10/2004)
                         **$15,297

B-SA-BIA-0201-2004       Omaha Tribe of Nebraska, Fiscal Year Ended September 30, 1999 (03/10/2004)
                         **$9,699

B-SA-BIA-0182-2004       Red Lake Band of Chippewa Indians, Year Ended December 31, 2002
                         (03/10/2004)

B-SA-BIA-0168-2004       The Klamath Tribes, Year Ended December 31, 2002 (03/12/2004)

B-SA-BIA-0024-2001       Confederated Tribes of the Colville Reservation, Fiscal Year Ended
                         September 30, 2001 (03/12/2004)

B-SA-BIA-0147-2004       The Hopi Tribe, Year Ended December 31, 2001 (03/12/2004)


                     Semiannual Report to the Congress: October 1, 2003 - March 30, 2004

                                                -40-
                                                                                           Appendix 2

Bureau of Indian Affairs

B-SA-BIA-0180-2004       Reno-Sparks Indian Colony, Year Ended December 31, 2002 (03/12/2004)

B-SA-BIA-0185-2004       Oglala Sioux Tribal Department of Public Safety, Fiscal Year Ended
                         September 30, 2000 (03/15/2004)

B-SA-BIA-0191-2004       Lac Courte Oreilles Ojibwa Community College, Fiscal Year Ended June 30,
                         2002 (03/15/2004)

B-SA-BIA-0202-2004       Quechan Indian Tribe, Year Ended December 31, 2001 (03/15/2004)

B-SA-BIA-0149-2004       Native Village of Barrow, Year Ended December 31, 2001 (03/24/2004)

B-SA-BIA-0155-2004       Circle Tribal Council, Fiscal Year Ended September 30, 2001 (03/24/2004)

B-SA-BIA-0184-2004       United Sioux Tribes of South Dakota Development Corporation, Fiscal Year
                         Ended September 30, 2002 (03/24/2004)

B-SA-BIA-0135-2004       Pleasant Point Passamaquoddy Tribe, Fiscal Year Ended September 30, 2001
                         (03/24/2004)

B-SA-BIA-0172-2004       Kipnuk Traditional Council, Year Ended December 31, 2002 (03/26/2004)

B-SA-BIA-0186-2004       Marysville School District, Snohomish County, Year Ended August 31, 2002
                         (03/26/2004)

B-SA-BIA-0203-2004       Sault Sainte Marie Tribe of Chippewa Indians, Year Ended December 31, 2002
                         (03/26/2004)

B-SA-BIA-0177-2004       Northwest Indian College, Fiscal Year Ended June 30, 2001 (03/26/2004)

B-SA-BIA-0189-2004       Pueblo of Laguna, Fiscal Year Ended February 28, 2003 (03/26/2004)

B-SA-BIA-0193-2004       Association of Village Council Presidents, Incorporated, Year Ended
                         December 31, 2002 (03/26/2004)

B-SA-BIA-0044-2004       Quinault Indian Nation, Fiscal Year Ended September 30, 2002 (03/30/2004)

B-SA-BIA-0220-2004       Confederated Tribes of the Chehalis Reservation, Year Ended December 31, 2002
                         (03/30/2004)

B-SA-BIA-0179-2004       Sauk-Suiattle Indian Tribe, Year Ended December 31, 2001 (03/31/2004)


                     Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                -41-
Appendix 2

Bureau of Land Management

B-SA-BLM-0027-2004       Mohave County, Arizona, Fiscal Year Ended June 30, 2001 (12/09/2003)

B-SA-BLM-0076-2004       Lane County, Oregon, Fiscal Year Ended June 30, 2002 (12/31/2003)

B-SA-BLM-0046-2004       Foundation for Voluntary Land Exchanges, Fiscal Year Ended December 31,
                         2002 (01/20/2004)


Bureau of Reclamation

B-SA-BOR-0028-2004       City of American Canyon, California, Fiscal Year Ended June 30, 2002
                         (11/26/2003)

B-SA-BOR-0068-2004       Southern Nevada Water Authority, Fiscal Year Ended June 30, 2002 (12/19/2003)

B-SA-BOR-0081-2004       Water Replenishment District of Southern California, Fiscal Year Ended June 30,
                         2002 (01/12/2004)

B-SA-BOR-0158-2004       Perkins County Rural Water System, Incorporated, Year Ended December 31,
                         2002 (03/09/2004)

B-SA-BOR-0183-2004       Central Basin Municipal Water District, Year Ended June 30, 2003 (03/16/2004)

B-SA-BOR-0192-2004       The Trust for Public Land, Fiscal Year Ended March 31, 2003 (03/26/2004)

Marshall Islands

B-SA-MAR-0142-2004       College of the Marshall Islands, Fiscal Year Ended September 30, 1998
                         (03/04/2004)

Minerals Management Service

B-SA-MMS-0133-2004       State of New Mexico, Taxation and Revenue Department, Fiscal Year Ended
                         June 30, 2002 (03/04/2004)

National Park Service

2004-A-008               America’s Agriculture Industrial Heritage Landscape, Inc., dba Silos and
                         Smokestacks National Heritage Area, Fiscal Year Ended December 31, 2002
                         (10/31/2003)


                     Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                -42-
                                                                                            Appendix 2

National Park Service

2004-A-010                Allen University, Fiscal Year Ended June 30, 2002 (10/31/2003)

2004-A-012                Accokeek Foundation, Incorporated, Two Fiscal Years Ended September 30,
                          2002 (10/31/2003)

2004-A-013                Boston Symphony Orchestra, Incorporated, Fiscal Year Ended August 31, 2002
                          (10/31/2003)

R-SA-NPS-0494-2002        National Park Foundation, Fiscal Year Ended June 30, 2002 (11/03/2003)

B-SA-NPS-0031-2004        Michigan Department of History, Arts and Libraries, Fiscal Year Ended
                          September 30, 2002 (11/26/2003) **$30,031

B-SA-NPS-0030-2004        Charter Township of Calumet, Michigan, Fiscal Year Ended December 31, 2002
                          (12/01/2003)

B-SA-NPS-0079-2004        Larimer County, Colorado, Fiscal Year Ended December 31, 2002 (12/19/2003)

Office of Surface Mining Reclamation and Enforcement

B-SA-OSM-0054-2004        State of Illinois, Fiscal Year Ended June 30, 2002 (12/30/2003)

B-SA-OSM-0083-2004        Campbell County School District No. 1, Wyoming, Fiscal Year Ended June 30,
                          2002 (12/31/2003)

B-SA-OSM-0089-2004        Rural Action, Incorporated, Fiscal Year Ended December 31, 2002 (03/09/2004)

Office of the Secretary

2004-A-006                Concurrent Technologies Corporation, Fiscal Year Ended June 30, 2002
                          (10/31/2003)

B-SA-OSS-0106-2004        SRI International, Fiscal Year Ended December 28, 2002 (03/12/2004)

Palau

B-SA-PAL-0162-2004        Palau Community Action Agency, Fiscal Year Ended September 30, 2002
                          (01/23/2004)




                     Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                -43-
Appendix 2

U.S. Fish and Wildlife Service

B-SA-FWS-0017-2004        Suisun Resource Conservation District of Solano County, Fiscal Year Ended
                          June 30, 2002 (11/26/2003)

B-SA-FWS-0029-2004        State of Arkansas, Fiscal Year Ended June 30, 2002 (12/04/2003)

B-SA-FWS-0049-2004        Chicago Zoological Society, Fiscal Year Ended December 31, 2002 (12/31/2003)

B-SA-FWS-0174-2004        Humboldt State University Foundation and College Improvement Foundation,
                          Year Ended June 30, 2003 (01/22/2004)

B-SA-FWS-0093-2004        Prince William Sound Science and Technology Institute, Fiscal Year Ended
                          September 30, 2002 (01/23/2004)

B-SA-FWS-0119-2004        The Tides Center, Fiscal Year Ended December 31, 2002 (01/23/2004)

B-SA-FWS-0151-2004        Noxubee County, Mississippi, Fiscal Year Ended September 30, 2002
                          (03/05/2004) **$226,567

B-SA-FWS-0153-2004        University of New Mexico, Fiscal Year Ended June 30, 2003 (03/09/2004)

B-SA-FWS-0170-2004        University of Wyoming, Fiscal Year Ended June 30, 2003 (03/26/2004)

U.S. Geological Survey

B-SA-GSV-0034-2004        Academy of Natural Sciences of Philadelphia, Fiscal Year Ended December 31,
                          2002 (12/04/2003)

B-SA-GSV-0080-2004        University of Alabama, Fiscal Year Ended September 30, 2002 (12/10/2003)

B-SA-GSV-0175-2004        California State University, Sacramento Foundation, Year Ended June 30, 2003
                          (03/04/2004)

B-SA-GSV-0138-2004        Miami University, Fiscal Year Ended June 30, 2003 (03/05/2004)

U.S. Virgin Islands

V-SA-VIS-0007-2004        Government of the Virgin Islands, Agreed-Upon Procedures, Fiscal Years 1996
                          and 1997 (10/31/2003) **$1,438,415

B-SA-VIS-0090-2004        University of the Virgin Islands, Fiscal Year Ended September 30, 2000
                          (12/20/2003)

                      Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                 -44-
                                                                                                         Appendix 3

                     Monetary Impact of Audit Activities
                From October 1, 2003, Through March 31, 2004

                                                             FUNDS TO BE
                                       QUESTIONED              PUT TO
           ACTIVITY                      COSTS               BETTER USE             REVENUES              TOTAL

Bureau of Indian Affairs                    $13,660,487            $4,200,000         $            0     $17,860,487

Bureau of Land Management                               0                     0           52,000,000      52,000,000

Fish and Wildlife Service                      1,892,485                      0                     0      1,892,485

Insular Areas: *

       U.S. Virgin Islands                     1,438,415                      0                     0      1,438,415

Multi Office                                            0          34,019,271                       0     34,019,271

National Park Service                             30,031                      0                   901         30,932



               TOTAL                     $17,021,418           $38,219,271          $52,000,901         $107,241,590




*Includes monetary impact of non-federal funds.


                            Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                       -45-
Appendix 4

                                 Audit Resolution Activities
                                          Table I
                                   Inspector General Audit Reports
                                       With Questioned Costs*

                                                          Number of             Questioned        Unsupported
                                                           Reports                Costs              Costs

A. For which no management decision had been
made by the commencement of the reporting
period.1                                                       86                    33,442,312       1,706,020

B. Which were issued during the reporting period.              44                    17,021,418              0

       Total (A + B)                                          130                    50,463,730       1,706,020

C. For which a management decision was made
during the reporting period.                                   27                     7,135,530       1,113,557

       (i) Dollar value of recommendations that
       were agreed to by management.                           18                     4,823,239       1,113,557

       (ii) Dollar value of recommendations that
       were not agreed to by management.                       9                      2,312,291              0

D. For which no management decision had been
made by the end of the reporting period.                      103                    43,328,200        592,463

E. For which no management decision was made
within 6 months of issuance.                                   76                    28,970,658        592,463




* Unsupported costs are included in questioned costs.

1 Beginning balance differs from October 2003 Semiannual Report ending balance by $1,088,166 (increase)
because of corrective adjustments.


                         Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                    -46-
                                                                                                Appendix 4

                                Audit Resolution Activities
                                         Table II
                            Inspector General Audit Reports
                  With Recommendations That Funds Be Put to Better Use

                                                                      Number of Reports       Dollar Value

A. For which no management decision had been made by
the commencement of the reporting period.                                       15              $101,460,106

B. Which were issued during the reporting period.                               2                 38,219,271

       Total (A + B)                                                            17               139,679,377

C. For which a management decision was made during the
reporting period.                                                               3                  2,257,365

        (i) Dollar value of recommendations that were
        agreed to by management.                                                3                  2,257,365

       (ii) Dollar value of recommendations that were not
         agreed to by management.                                               0                            0

D. For which no management decision had been made by
the end of the reporting period.                                                14               137,422,012

E. For which no management decision was made
within six months of issuance.                                                  12                99,202,741




                        Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                   -47-
Appendix 4

                                Audit Resolution Activities
                                        Table III
                                Inspector General Audit Reports
                           With Lost or Potential Additional Revenues

                                                                      Number of Reports       Dollar Value

A. For which no management decision had been made by
the commencement of the reporting period.1                                      11              $180,599,986

B. Which were issued during the reporting period.                               2                 52,000,901

       Total (A + B)                                                            13               232,600,887

C. For which a management decision was made during the
reporting period.                                                               3                    155,910

        (i) Dollar value of recommendations that were
        agreed to by management.                                                3                    155,910

       (ii) Dollar value of recommendations that were not
         agreed to by management.                                               0                            0

D. For which no management decision had been made by
the end of the reporting period.                                                11               232,444,977

E. For which no management decision was made
within 6 months of issuance.                                                    10               180,444,977




1 Beginning balance differs from October 2003 Semiannual Report by $43,200,000 because one recommenda-
tion was incorrectly excluded.


                        Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                   -48-
                                                                                                Appendix 5

                Summary of Audit Reports Over 6 Months Old
                      Pending Management Decisions
                  October 1, 2003, Through March 31, 2004

This listing includes a summary of internal, contract (except preawards), grant, and single audit reports that
were over 6 months old on March 31, 2004, and still pending a management decision. It provides report num-
ber, title, issue date, number of unresolved recommendations, and unresolved amount of monetary benefits
identified in the audit report.


                                         INTERNAL AUDITS
Marshall Islands

1999-I-0952                  Marshall Islands Development Bank, Republic of the Marshall Islands
                             (09/30/1999); 4 Recommendations, $382,888 Unresolved

Multi-Office Audit

2001-I-0297                  Audit Report on the Stripper Oil Well Property Royalty Rate Reduction Program
                             (03/30/2001); 2 Recommendations Unresolved

Northern Mariana Islands

2003-I-0073                  Saipan Harbor Improvement Project, Commonwealth Ports Authority,
                             Commonwealth of the Northern Mariana Islands (09/30/2003);
                             2 Recommendations, $980,000 Unresolved



                             CONTRACT AND GRANT AUDITS

Bureau of Indian Affairs

1994-E-0784                  Audit Of Costs Claimed By Diversified Business Technologies Corporation,
                             Albuquerque, New Mexico (06/10/1994); 1 Recommendation, $825,170
                             Unresolved
                             (Circumstances beyond the Bureau's control have delayed resolution of the
                             costs.)


                         Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                    -49-
Appendix 5

Bureau of Indian Affairs

1994-E-0919             Audit Of Costs Claimed By Diversified Technologies Corporation, Albuquerque,
                        New Mexico (06/30/1994); 1 Recommendation, $247,414 Unresolved
                        (Circumstances beyond the Bureau's control have delayed resolution of the
                        costs.)


Bureau of Reclamation

2000-E-0688             Interstate Electrical Contractor, Claims For Equitable Adjustment Submitted to
                        BOR Under Contract No. 1425-5-CC-40-17910 (09/18/2000);
                        1 Recommendation, $982,917 Unresolved

2001-E-0184             Mingus Constructors, Inc., Claim for Equitable Adjustment Submitted to BOR
                        Under Contract No. 1425-5-CC-40-17910 (02/14/2001); 1 Recommendation,
                        $725,790 Unresolved

2001-E-0229             Costs Claimed By Sloat and Associates, Inc., Under BOR Contract No. 1425-5-
                        CC-40-18140 (02/14/2001); 1 Recommendation, $157,964 Unresolved

2002-E-0008             Tooele City, Utah, Costs Billed Under Bureau of Reclamation Cooperative
                        Agreement No. 96FC400870 (09/20/2002); 1 Recommendation, $461,981
                        Unresolved

Minerals Management Service

2001-E-0355             Audit of Costs Billed by the Ute Indian Tribe (05/04/2001); 1 Recommendation,
                        $132,217 Unresolved


National Park Service

2000-E-0289             J.C.M. Control Systems, Inc., Costs Billed During Fiscal Years 1997,1998, &
                        1999 Under NPS Contract No. 1443CX300094906 (03/24/2000);
                        1 Recommendation, $83,125 Unresolved
                        (Circumstances beyond the Bureau's control have delayed resolution of the
                        costs.)

2000-E-0607             Harrison and Palmer, Inc., Costs Billed Under National Park Service Contract
                        No. 1443CX00094906 (08/08/2000); 1 Recommendation, $52,703 Unresolved

2000-E-0706             Southern Insulation, Inc. (09/29/2000); 1 Recommendation, $86,262 Unresolved


                   Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                              -50-
                                                                                           Appendix 5

National Park Service

2001-E-0035               Callas Contractors, Inc. (11/07/2000); 1 Recommendation, $16,425 Unresolved

2001-E-0036               Final Costs Audit of Capitol Mechanical Construction (11/07/2000);
                          1 Recommendation, $98,194 Unresolved

2001-E-0244               Audit of Costs Billed by EMS Consultants From May 1, 1996, Through June 1,
                          1999 (02/27/2001); 1 Recommendation, $327,330 Unresolved

2001-E-0336               Audit of Subcontract Overhead Costs Billed By JCM Control Systems, Inc.
                          (04/23/2001); 1 Recommendation, $109,865 Unresolved
                          (Circumstances beyond the Bureau's control have delayed resolution of the
                          costs.)

2002-E-0002               Community Central Energy Corporation, Amounts Billed Under National Park
                          Service Contract No. CX-4000-0-0023 From October 1, 1993, Through
                          September 30, 2000 (12/19/2001); 1 Recommendation, $779,274 Unresolved

Office of the Secretary

2002-E-0001               Los Alamos Technical Associates, Incorporated, Termination Settlement Proposal
                          Under Office of the Special Trustee Contract No. NBCA0C00009 (01/17/2002);
                          1 Recommendation, $30,031 Unresolved

Office of the Special Trustee for American Indians

2002-E-0003               Ktech Corporation, Termination Settlement Proposal Under Office of the Special
                          Trustee Contract No. NBCA0C00009 (01/17/2002); 1 Recommendation, $28,381
                          Unresolved
2003-E-0005
                          Audit of Final Contract Costs for Chavarria, Dunne, & Lamey LLC Under Office
                          of the Special Trustee Contract No. CMK00133396 (11/12/2002);
                          1 Recommendation, $108,405 Unresolved

Puerto Rico

1998-E-0098               Claims Against the Federal Emergency Management Agency's Community
                          Disaster Loan, Government of the Virgin Islands (11/12/1997);
                          1 Recommendation, $21,700 Unresolved




                    Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                               -51-
Appendix 5

U.S. Fish and Wildlife Service

1998-E-0198              U.S. Fish and Wildlife Service Federal Grants to the State of Colorado for Fiscal
                         Years 1994 and 1995 (01/16/1998); 1 Recommendation, $1,457,264 Unresolved

2002-E-0012              Costs Claimed by the State of Oklahoma, Department of Wildlife Conservation,
                         Under Federal Aid Grants From the U.S. Fish and Wildlife Service From July 1,
                         1996 to June 30, 1998 (09/09/2002); 12 Recommendations, $2,454,763
                         Unresolved

2003-E-0001              Costs Claimed by the U.S. Virgin Islands, Department of Planning and Natural
                         Resources, Division of Fish and Wildlife, Under Federal Aid Grants From the
                         U.S. Fish and Wildlife Service From October 1, 1996 Through September 30,
                         1998 (10/07/2002); 9 Recommendations, $212,322 Unresolved

2003-E-0003              Costs Claimed by the State of Hawaii Department of Land and Natural
                         Resources, Under Federal Aid Grants From the U.S. Fish and Wildlife Service
                         From July 1, 1998 Through June 30, 2000 (11/12/2002); 6 Recommendations,
                         $420,910 Unresolved

2003-E-0007              Costs Claimed by the State of Ohio, Department of Natural Resources, Under
                         Federal Aid Grants From the U.S. Fish and Wildlife Service From July 1, 1999 to
                         October 1, 2001 (12/23/2002); 2 Recommendations Unresolved

2003-E-0008              Costs Claimed by the State of Georgia, Department of Natural Resources,
                         Wildlife Resources Division and Coastal Resources Division, Under Federal Aid
                         Grants From the U.S. Fish and Wildlife Service From July 1, 1997 Through June
                         30, 1999 (12/31/2002); 1 Recommendation Unresolved

2003-E-0014              Costs Claimed by the State of Arizona, Department of Game and Fish, Under
                         Federal Aid Grants From the U.S. Fish and Wildlife Service From July 1, 1998
                         Through June 30, 2000 (01/23/2003); 2 Recommendations Unresolved

2003-E-0022              Costs Claimed by the State of Missouri, Department of Conservation, Under
                         Federal Aid Grants From the U.S. Fish and Wildlife Service From July 1, 1997
                         Through June 30, 1999 (06/11/2003); 8 Recommendations Unresolved


U.S. Geological Survey

1993-E-0339              Closing Statement, TGS Technology, Inc. (12/22/1992); 1 Recommendation,
                         $786,501 Unresolved




                    Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                               -52-
                                                                                          Appendix 5

                                       SINGLE AUDITS

Bureau of Indian Affairs

1996-A-1122             Northwestern Band of the Shoshoni Nation, Fiscal Year December 30, 1994
                        (08/15/1996); 1 Recommendation, $8,390 Unresolved

2002-A-0227             Shonto Governing Board of Education, Inc., Fiscal Year Ended June 30, 2000
                        (03/21/2002); 5 Recommendations Unresolved

2002-A-0265             Cheyenne & Arapaho Tribes of Oklahoma, Fiscal Year Ended December 31,
                        1999 (05/10/2002); 1 Recommendation Unresolved

2002-A-0285             Big Valley Rancheria Band of Pomo Indians, Fiscal Year Ended December 31,
                        2000 (05/17/2002); 4 Recommendations Unresolved

2002-A-0311             Chalkyitsik Village Council, Fiscal Year Ended September 30, 2000
                        (06/06/2002); 3 Recommendations Unresolved

2002-A-0348             Scotts Valley Band of Pomo Indians, Fiscal Year Ended December 31, 2000
                        (07/11/2002); 1 Recommendation Unresolved

2002-A-0401             Kayenta Community School, Fiscal Year Ended June 30, 2001 (08/16/2002);
                        4 Recommendations Unresolved

2002-A-0425             Naa Tsis Aan Community School, Fiscal Year Ended June 30, 2001 (09/09/2002);
                        1 Recommendation Unresolved

2002-A-0433             Winslow Residential Hall, Inc., Fiscal Year Ended June 30, 2001 (09/11/2002);
                        5 Recommendations Unresolved

2002-A-0446             Standing Rock Community Grant School, Fiscal Year Ended June 30, 2000
                        (09/18/2002); 2 Recommendations, $584 Unresolved

2002-A-0457             Three Affiliated Tribes, Fiscal Year Ended September 30, 1999 (09/20/2002);
                        9 Recommendations Unresolved

2002-A-0463             South Fork Band Council, Fiscal Year Ended September 30, 2000 (09/25/2002);
                        4 Recommendations Unresolved

2002-A-0465             Loneman Day School, Fiscal Year Ended June 30, 2001 (09/25/2002);
                        4 Recommendations Unresolved



                    Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                               -53-
Appendix 5

Bureau of Indian Affairs

2002-A-0468            Ponca Tribe of Nebraska, Fiscal Year Ended September 30, 2001 (09/27/2002); 1
                       Recommendation Unresolved

2003-A-0006            Quechan Indian Tribe, Fiscal Year Ended December 31, 1999 (10/15/2002);
                       13 Recommendations Unresolved

2003-A-0007            Si Tanka College, Fiscal Year Ended September 30, 2000 (10/15/2002);
                       2 Recommendations Unresolved

2003-A-0012            Organized Village of Akiachak, Fiscal Year Ended December 31, 2000
                       (10/15/2002); 10 Recommendations Unresolved

2003-A-0016            Rough Rock Community School, Fiscal Year Ended June 30, 1999 (10/25/2002);
                       4 Recommendations Unresolved

2003-A-0032            Crazy Horse School, Fiscal Year Ended June 30, 2000 (10/25/2002);
                       1 Recommendation Unresolved

2003-A-0036            North Fork Mono Rancheria, Fiscal Year Ended September 30, 2001
                       (10/25/2002); 3 Recommendations, $71,408 Unresolved

2003-A-0037            Ojibwa Indian School, Fiscal Year Ended June 30, 2001 (10/24/2002);
                       2 Recommendations Unresolved

2003-A-0058            Oglala Sioux Tribe, Fiscal Year Ended December 31, 1999 (11/08/2002);
                       17 Recommendations, $1,795,918 Unresolved

2003-A-0060            Mooretown Rancheria, Fiscal Year Ended December 31, 2001 (11/12/2002);
                       1 Recommendation Unresolved

2003-A-0067            United Sioux Tribes of South Dakota Development Corporation, Fiscal Year
                       Ended September 30, 2001 (11/25/2002); 1 Recommendation Unresolved

2003-A-0071            Oglala Sioux Tribal Department of Public Safety, Fiscal Year Ended September
                       30, 1999 (11/25/2002); 8 Recommendations, $17,661 Unresolved

2003-A-0080            Trinidad Rancheria, Fiscal Year Ended December 31, 2001 (12/06/2002);
                       1 Recommendation Unresolved

2003-A-0100            Pyramid Lake Paiute Tribe, Fiscal Year Ended December 31, 2000 (12/20/2002);
                       18 Recommendations, $1,374,912 Unresolved


                   Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                              -54-
                                                                                         Appendix 5

Bureau of Indian Affairs

2003-A-0104            Confederated Salish and Kootenai Tribes Of The Flathead Nation, Fiscal Year
                       Ended September 30, 2001 (12/26/2002); 1 Recommendation Unresolved

2003-A-0115            Jicarilla Apache Nation, Fiscal Year Ended December 31, 2001 (01/17/2003);
                       4 Recommendations Unresolved

2003-A-0116            Nooksack Indian Tribe, Fiscal Year Ended December 31, 2000 (01/17/2003);
                       5 Recommendations Unresolved

2003-A-0133            Three Affiliated Tribes, Fiscal Year Ended September 30, 2000 (01/24/2003);
                       10 Recommendations Unresolved

2003-A-0160            Southern Ute Indian Tribe, Fiscal Year Ended September 30, 2001 (01/30/2003);
                       4 Recommendations Unresolved

2003-A-0165            Nooksack Indian Tribe, Fiscal Year Ended December 31, 2001 (01/31/2003);
                       1 Recommendation $1,035,634 Unresolved

2003-A-0178            Cocopah Indian Tribe, Fiscal Year Ended December 31, 2000 (02/05/2003);
                       1 Recommendation $27,772 Unresolved

2003-A-0190            Dry Creek Rancheria Band of Pomo Indians, Fiscal Year Ended December 31,
                       2000 (02/20/2003); 1 Recommendation, $58,528 Unresolved

2003-A-0196            Porcupine School, Fiscal Year Ended June 30, 2000 (02/26/2003);
                       1 Recommendation, $50,351 Unresolved

2003-A-0200            Native Village of St. Michael, Fiscal Year Ended December 31, 1999
                       (02/28/2003); 1 Recommendation, $560 Unresolved

2003-A-0209            Chickaloon Village Traditional Council, Fiscal Year Ended December 31, 2000
                       (03/03/2003); 2 Recommendations Unresolved

2003-A-0210            Bering Sea Fishermen's Association, Fiscal Year Ended June 30, 2001
                       (03/06/2003); 1 Recommendation Unresolved

2003-A-0212            Big Sandy Rancheria, Fiscal Year Ended December 31, 2000 (03/06/2003);
                       7 Recommendations Unresolved




                   Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                              -55-
Appendix 5

Bureau of Indian Affairs

2003-A-0227            Native Village of Unalakleet, Fiscal Year Ended December 31, 2000
                       (03/06/2003); 1 Recommendation, $75,838 Unresolved

2003-A-0228            Native Village of Unalakleet, Fiscal Year Ended December 31, 1998
                       (03/06/2003); 1 Recommendation, $14,479 Unresolved

2003-A-0232            Pit River Tribe, Fiscal Year Ended December 31, 2001 (04/09/2003);
                       5 Recommendations Unresolved

2003-A-0236            Mni Sose Intertribal Water Rights Coalition, Incorporated, Fiscal Year Ended
                       December 31, 2000 (04/11/2003); 1 Recommendation Unresolved

2003-A-0237            Big Sandy Rancheria, Fiscal Year Ended December 31, 2001 (04/09/2003);
                       7 Recommendations Unresolved

2003-A-0245            Cloverdale Rancheria, Fiscal Year Ended December 31, 2001 (04/11/2003);
                       4 Recommendations Unresolved

2003-A-0246            Central Council of the Tlingit and Haida Indian Tribes of Alaska, Fiscal Year
                       Ended December 31, 2001 (04/11/2003); 1 Recommendation Unresolved

2003-A-0247            Salt River Pima-Maricopa Indian Community, Fiscal Year Ended September 30,
                       2001 (04/11/2003); 5 Recommendations Unresolved

2003-A-0251            Cocopah Indian Tribe, Fiscal Year Ended December 31, 2001 (04/11/2003);
                       31 Recommendations Unresolved

2003-A-0253            Quileute Tribal School, Fiscal Year Ended June 30, 2001 (04/15/2003);
                       1 Recommendation Unresolved

2003-A-0259            Native Village of Mekoryuk IRA Council, Fiscal Year Ended December 31, 2000
                       (04/22/2003); 6 Recommendations, $201,723 Unresolved

2003-A-0264            Stewarts Point Rancheria, Fiscal Year Ended December 31, 2001 (04/25/2003);
                       3 Recommendations Unresolved

2003-A-0270            Noorvik IRA Council, Fiscal Year Ended December 31, 1999 (04/25/2003);
                       1 Recommendation Unresolved

2003-A-0305            Spirit Lake Tribe, Fiscal Year Ended September 30, 2002 (05/28/2003);
                       1 Recommendation Unresolved


                   Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                              -56-
                                                                                         Appendix 5

Bureau of Indian Affairs

2003-A-0308            Kipnuk Traditional Council, Fiscal Year Ended December 31, 2001(05/29/2003);
                       2 Recommendations, $111,129 Unresolved

2003-A-0313            Chilchinbeto Community School, Fiscal Year Ended June 30, 2002 (06/04/2003);
                       3 Recommendations Unresolved

2003-A-0322            Tonto-Apache Tribe, Fiscal Year Ended December 31, 1998 (06/20/2003);
                       11 Recommendations, $31,179 Unresolved

2003-A-0324            Pueblo of Laguna Department of Education, Fiscal Year Ended June 30, 2002
                       (06/19/2003); 1 Recommendation Unresolved

2003-A-0327            Fort Independence Indian Community of Paiute Indians, Fiscal Year Ended
                       December 31, 2000 (06/23/2003); 3 Recommendations Unresolved

2003-A-0331            Northern Cheyenne Tribe, Fiscal Year Ended September 30, 2001
                       (07/30/2003); 2 Recommendations Unresolved

2003-A-0332            Cheyenne & Arapaho Tribes of Oklahoma, Fiscal Year Ended December 31,
                       2001 (07/03/2003); 2 Recommendations Unresolved

2003-A-0334            Beaver Village Council, Fiscal Year Ended September 30, 2000 (07/03/2003);
                       10 Recommendations Unresolved

2003-A-0341            Fort Independence Indian Community of Paiute Indians, Fiscal Year Ended
                       December 31, 2001 (07/03/2003); 2 Recommendations Unresolved

2003-A-0344            Traditional Council of Togiak, Fiscal Year Ended September 30, 2001
                       (07/03/2003); 2 Recommendations Unresolved

2003-A-0347            Augustine Band of Cahuilla Mission Indians, Fiscal Year Ended December 31,
                       2001 (07/03/2003); 1 Recommendation Unresolved

2003-A-0348            Standing Rock — Rock Creek School, Fiscal Year Ended June 30, 2001
                       (07/03/2003); 10 Recommendations, $82,262 Unresolved

2003-A-0351            Takini School, Fiscal Year Ended June 30, 2001 (07/11/2003);
                       5 Recommendations Unresolved

2003-A-0355            Bering Sea Fishermen's Association, Fiscal Year Ended June 30, 2002
                       (07/15/2003); 2 Recommendations Unresolved


                   Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                              -57-
Appendix 5

Bureau of Indian Affairs

2003-A-0356            Hoh Indian Tribe, Fiscal Year Ended September 30, 1998 (07/15/2003);
                       7 Recommendations, $368,814 Unresolved

2003-A-0359            Chitina Traditional Indian Village Council, Fiscal Year Ended September 30,
                       2001 (07/25/2003); 2 Recommendations Unresolved

2003-A-0362            Penobscot Indian Nation, Fiscal Year Ended September 30, 2002 (07/25/2003);
                       2 Recommendations Unresolved

2003-A-0363            The Visions of Suanne Big Crow, Incorporated, Fiscal Year Ended December 31,
                       2001 (07/25/2003); 2 Recommendations Unresolved

2003-A-0365            Native Village of Mekoryuk, Fiscal Year Ended December 31, 2001
                       (07/25/2003); 2 Recommendations Unresolved

2003-A-0368            Wounded Knee District School, Fiscal Year Ended June 30, 1999 (08/22/2003);
                       2 Recommendations, $205,113 Unresolved

2003-A-0378            Cortina Indian Rancheria, Fiscal Year Ended December 31, 2000 (08/14/2003);
                       3 Recommendations Unresolved

2003-A-0381            Otoe-Missouria Tribe of Indians, Fiscal Year Ended December 31, 1999
                       (07/22/2003); 1 Recommendation Unresolved

2003-A-0394            Chitina Traditional Indian Village Council, Fiscal Year Ended September 30,
                       2002 (08/22/2003); 2 Recommendations Unresolved

2003-A-0403            Walker River Paiute Tribe, Fiscal Year Ended December 31, 2000 (08/27/2003);
                       5 Recommendations Unresolved

2003-A-0415            San Juan Pueblo Board of Education, Fiscal Year Ended June 30, 2002
                       (09/17/2003); 2 Recommendations Unresolved

2003-A-0416            Nazlini Community School, Incorporated and Nazlini Community Junior High
                       School, Fiscal Year Ended June 30, 2001 (09/17/2003); 20 Recommendations
                       Unresolved

2003-A-0417            Gila Crossing Community School, Fiscal Year Ended June 30, 2002
                       (09/17/2003); 1 Recommendation Unresolved

2003-A-0420            Takini School, Fiscal Year Ended June 30, 2002 (09/25/2003);
                       3 Recommendations, $262,694 Unresolved


                   Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                              -58-
                                                                                             Appendix 5

Bureau of Land Management

2003-A-0052             North Slope Borough, Fiscal Year Ended June 30, 2001 (11/04/2002);
                        1 Recommendation Unresolved

2003-A-0337             Modoc Joint Unified School District, California, Fiscal Year Ended June 30,
                        2002 (07/11/2003); 1 Recommendation Unresolved

National Park Service

1998-A-0194             Georgia Trust for Historic Preservation, Inc., Fiscal Year Ended March 31, 1997
                        (12/24/1997); 1 Recommendation Unresolved

1998-A-0229             National Institute for the Conservation of Cultural Property, Inc., Fiscal Year
                        Ended December 31, 1996 (01/15/1998); 1 Recommendation Unresolved

1998-A-0627             South Carolina Department of Parks, Recreation and Tourism, Fiscal Year Ended
                        June 30, 1996 (08/06/1998); 1 Recommendation Unresolved

1998-A-0687             National Conference of State Historic Preservation Officers, Fiscal Year Ended
                        December 31, 1997 (09/25/1998); 1 Recommendation Unresolved

2000-A-0158             Georgia Trust for Historic Preservation, Inc., Fiscal Year Ended March 31, 1998
                        (12/17/1999); 1 Recommendation Unresolved

2000-A-0160             Ste. Genevieve, Missouri, Fiscal Year Ended September 30, 1998 (12/17/1999);
                        1 Recommendation Unresolved

2000-A-0186             Allegheny Ridge Corporation, Fiscal Year Ended June 30, 1997 (01/13/2000);
                        1 Recommendation Unresolved

2001-A-0089             Georgia Trust for Historic Preservation, Fiscal Year Ended March 31, 1999
                        (12/14/2000); 1 Recommendation Unresolved

2002-A-0028             Georgia Trust for Historic Preservation, Inc., Fiscal Year Ended March 31, 2000
                        (10/25/2001); 1 Recommendation Unresolved

2002-A-0060             Appalachian Trail Conference, Fiscal Year Ended December 31, 1999
                        (11/16/2001); 1 Recommendation Unresolved

2002-A-0412             Georgia Trust for Historic Preservation, Inc., Fiscal Year Ended March 31, 2001
                        (08/26/2002); 1 Recommendation Unresolved



                   Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                              -59-
Appendix 5

National Park Service

2003-A-0043              National Academy of Public Administration Foundation and Affiliate, Fiscal Year
                         Ended September 30, 2001 (10/31/2002); 2 Recommendations Unresolved

2003-A-0045              Silos and Smokestacks National Heritage Area, Fiscal Year Ended December 31,
                         2001 (10/31/2002); 1 Recommendation Unresolved

2003-A-0090              Intrepid Museum Foundation and Subsidiaries, Fiscal Year Ended April 30, 2001
                         (12/18/2002); 4 Recommendations Unresolved

2003-A-0172              National Park Foundation, Fiscal Year Ended June 30, 2001 (02/07/2003);
                         3 Recommendations Unresolved

2003-A-0271              Sonoran Institute, Fiscal Year Ended June 30, 2001 (04/25/2003);
                         2 Recommendations Unresolved

2003-A-0319              Vermont Historical Society and Subsidiary, Fiscal Year Ended June 30, 2002
                         (06/20/2003); 2 Recommendations Unresolved

2003-A-0352              National Academy of Public Administration Foundation and Affiliate, Fiscal Year
                         Ended September 30, 2002 (07/11/2003); 1 Recommendation Unresolved

2003-A-0364              St. Croix Economic Alliance, Fiscal Year Ended June 30, 2002 (07/25/2003);
                         3 Recommendations Unresolved

2003-A-0409              Wheeling National Heritage Area Corporation, Fiscal Year Ended June 30, 2002
                         (08/29/2003); 3 Recommendations Unresolved

2003-A-0413              Quinebaug-Shetucket Heritage Corridor, Incorporated, Fiscal Year Ended
                         December 31, 2002 (09/08/2003); 1 Recommendation Unresolved

Office of Surface Mining

2003-A-0288              Wyoming, Fiscal Year Ended June 30, 2002 (05/09/2003); 2 Recommendations,
                         $27,445 Unresolved

Office of Territorial and International Affairs

2000-A-0062              Hawaii, Fiscal Year Ended June 30, 1998 (11/04/1999); 1 Recommendation,
                         $32,167 Unresolved



                     Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                -60-
                                                                                            Appendix 5

Office of the Secretary

2000-A-0099               Pennsylvania State University, Fiscal Year Ended June 30, 1998 (11/19/1999);
                          1 Recommendation, $2,303 Unresolved

2001-A-0450               Connecticut College, New London, Connecticut, Fiscal Year Ended June 30,
                          1999 (07/31/2001); 1 Recommendation, $3,234 Unresolved

U.S. Fish and Wildlife Service

1997-A-0993               Commonwealth of Virginia, Fiscal Year Ended June 30, 1995 (08/08/1997);
                          1 Recommendation Unresolved

1997-A-1180               Wisconsin, Fiscal Year Ended June 30, 1995 (09/05/1997); 1 Recommendation,
                          $26,410 Unresolved

1997-A-1241               South Carolina, Fiscal Year Ended June 30, 1996 (09/17/1997); 1
                          Recommendation Unresolved

1998-A-0149               Arizona, Fiscal Year Ended June 30, 1996 (12/02/1997); 1 Recommendation
                          Unresolved

2000-A-0237               Alaska, Fiscal Year Ended June 30, 1998 (02/11/2000); 1 Recommendation
                          Unresolved

2002-A-0402               New Hampshire, Fiscal Year Ended June 30, 2001 (08/16/2002);
                          2 Recommendations, $13,147 Unresolved

2002-A-0481               Montana, Fiscal Year Ended June 30, 2001 (09/30/2002); 4 Recommendations,
                          $49,935 Unresolved

2003-A-0198               The Tides Center, Fiscal Year Ended December 31, 2001 (02/28/2003);
                          1 Recommendation Unresolved

2003-A-0269               Mercer County, Illinois, Fiscal Year Ended November 30, 2001 (04/25/2003); 1
                          Recommendation Unresolved

2003-A-0292               North Dakota, Fiscal Year Ended June 30, 2002 (05/08/2003); 1
                          Recommendation Unresolved

2003-A-0294               Minnesota, Fiscal Year Ended June 30, 2002 (05/15/2003); 1 Recommendation
                          Unresolved


                    Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                               -61-
Appendix 5

U.S. Fish and Wildlife Service

2003-A-0325             Idaho, Fiscal Year Ended June 30, 2002 (06/19/2003); 1 Recommendation
                        Unresolved

2003-A-0329             South Carolina, Fiscal Year Ended June 30, 2002 (06/30/2003); 1
                        Recommendation Unresolved




                    Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                               -62-
                                                                                                Appendix 6

         Summary of Internal Audit Reports Over 6 Months Old
                     Pending Corrective Action
             October 1, 2003, Through March 31, 2004

This is a listing of internal audit reports with management decisions over 6 months old, for which
corrective action has not been completed. It provides report number, title, issue date, and the number of
recommendations without final corrective action. The Focus Leader for Management Control and Audit
Followup and the Assistant Secretary for Policy, Management, and Budget continue to monitor these audits for
completion of corrective action.


Bureau of Indian Affairs

1995-I-1402                 Wapato Irrigation Project, Bureau of Indian Affairs (09/30/1995);
                            3 Recommendations

1996-I-0641                 Indian Irrigation Projects (03/29/1999); 1 Recommendation

2003-I-0055                 Evaluation of the Bureau of Indian Affairs Process to Approve Tribal Gaming
                            Revenue Allocation Plans (06/11/03); 3 Recommendations

2003-I-0070                 Bureau of Indian Affairs School Construction Planning and Design Process
                            (09/29/2003); 6 Recommendations

Bureau of Land Management

1992-I-0828                 Onshore Geophysical Exploration Fees, Bureau of Land Management
                            (05/26/1992); 2 Recommendations

1995-I-0379                 Follow-up of Recommendations Relating to Bureau of Land Management User
                            Charges for Mineral-Related Document Processing (01/23/1995);
                            2 Recommendations

1995-I-0747                 Right-Of-Way Grants, Bureau of Land Management (03/31/1995);
                            6 Recommendations

1996-I-1267                 Inspection and Enforcement Program and Selected Related Activities
                            (09/20/1996); 1 Recommendation

1997-I-1300                 Issuance of Mineral Patents, Bureau of Land Management and Office of the
                            Solicitor (09/30/1997); 1 Recommendation


                        Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                   -63-
Appendix 6

Bureau of Land Management

1998-I-0551             Reimbursement of Firefighting Costs, Bureau of Land Management
                        (07/27/1998); 2 Recommendations

1999-I-0677             Rangelands Improvement Program, Bureau of Land Management (07/28/1999);
                        1 Recommendation

1999-I-0808             Cultural Resource Management, Bureau of Land Management (09/03/1999);
                        2 Recommendations

2001-I-0413             Land Exchanges and Acquisition, Bureau of Land Management (07/31/2001);
                        2 Recommendations

2002-I-0047             GPRA Goal — Reduce Threats to Public Health, Safety and Property
                        (09/25/2002); 6 Recommendations

Bureau of Reclamation

1999-I-0588             Lower Brule Sioux Rural Water System, Mni Wiconi Rural Water Supply Project,
                        Bureau of Reclamation (06/24/1999); 1 Recommendation

2000-I-0376             Concessions Managed by the Bureau of Reclamation (05/08/2000);
                        1 Recommendation

2002-I-0004             Improvements Needed in Security Management of Information Technology
                        Systems Supporting Energy and Water Operations (11/16/2001);
                        2 Recommendations

Departmental Offices

2003-I-0056             Department of the Interior Working Capital Fund (06/16/2003); 9 Recommendations

Marshall Islands

1999-I-0952             Marshall Islands Development Bank, Republic of the Marshall Islands
                        (09/30/1999); 3 Recommendations

Minerals Management Service

1996-I-1255             Selected Activities of the Royalty Management System (09/30/2003);
                        2 Recommendations

                   Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                              -64-
                                                                                           Appendix 6

Minerals Management Service

2003-I-0023              Minerals Management Service Audit Offices (03/31/2003); 3 Recommendations

2003-I-0061              Audit of Oversight Performed by the Minerals Management Service of Non-
                         Federal Auditors (08/22/2003); 3 Recommendations

Multi-Office Audit

2000-I-0300              Supporting Documentation for Operators Participating in the Stripper Oil Well
                         Property Royalty Rate Reduction Program (03/27/2000); 2 Recommendations

2001-I-0421              Audit of Bonding for Oil and Gas Wells on Indian Trust Lands (09/24/2001);
                         2 Recommendations

2003-I-0060              Follow-up Evaluation Policies and Procedures Related to the Rural Development
                         Act of 1972 (08/20/2003); 1 Recommendation

National Park Service

1997-I-0908              Automated Law Enforcement System, National Park Service (06/23/1997);
                         1 Recommendation

1998-I-0406              Followup of Recommendations Concerning Utility Rates Imposed by the
                         National Park Service (04/15/1998); 5 Recommendations

2002-I-0045              Recreational Fee Demonstration Program, National Park Service and Bureau of
                         Land Management (08/19/2002); 5 Recommendations

2003-I-0013              Yosemite National Park's Museum Collection, National Park Service
                         (03/31/2003); 2 Recommendations

Northern Mariana Islands

2003-I-0073              Saipan Harbor Improvement Project, Commonwealth Ports Authority,
                         Commonwealth of the Northern Mariana Islands (09/30/2003);
                         1 Recommendation




                     Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                -65-
Appendix 6

Office of the Special Trustee for American Indians

1997-I-1167             Judgment Funds Awarded to the Turtle Mountain Band of Chippewa Indians
                        (09/22/1997); 1 Recommendation

1997-I-1168             Judgment Funds Awarded to the Navajo Nation (09/22/1997); 1 Recommendation

1997-I-1169             Judgment Funds Awarded to the Papago Tribe of Arizona (09/15/1997);
                        2 Recommendations

1998-I-0703             Agricultural Leasing and Grazing Activities, Fort Peck Agency (09/30/1998);
                        1 Recommendation

2001-I-0411             Independent Auditors' Report on the Financial Statement for Fiscal Years 2000
                        and 1999 for the Office of the Special Trustee for American Indians Tribal and
                        other Special Trust Funds and Individual Indian Monies Trust Funds Managed by
                        the Office of Trust Funds Management (06/24/2001); 8 Recommendations

2002-I-0027             Independent Auditors' Report on the Office of the Special Trustee for American
                        Indians Tribal and Other Trust Funds and Individual Indian Monies Trust Funds
                        Financial Statements for Fiscal Years 2001 and 2000 (04/25/2002); 3
                        Recommendations

2003-I-0028             Management Letter for the Office of the Special Trustee for American Indians
                        Financial Statement Audit Fiscal Year 2002 (03/05/2003); 7 Recommendations

Office of Surface Mining Reclamation and Enforcement

2003-I-0074             Review of the Abandoned Mine Land Program, Office of Surface Mining
                        Reclamation and Enforcement (09/30/2003); 1 Recommendation

U.S. Fish and Wildlife Service

1997-I-1305             Automated Law Enforcement System, U.S. Fish and Wildlife Service
                        (09/30/1997); 2 Recommendations

2000-I-0050             Miscellaneous Receipts, U.S. Fish and Wildlife Service (11/09/1999);
                        6 Recommendations

2003-I-0045             Reporting and Recovery Planning and Implementation for Endangered Species
                        (04/22/2003); 2 Recommendations



                    Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                               -66-
                                                                                         Appendix 6

U.S. Geological Survey

2003-I-0042              Improvements Needed in Managing Security of Mission-Critical Information
                         Technology Systems (03/31/2003); 3 Recommendations




                   Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                              -67-
Appendix 7

                            Summary of Insular Area Reports
                             With Open Recommendations
                                  Over 6 Months Old

Note: These Insular Area reports contain recommendations made specifically to Insular Area governors and
other Insular Area officials, who do not report to the Secretary and are not subject to the policy, guidance, and
administrative oversight established by the Assistant Secretary for Policy, Management, and Budget.

                                         INTERNAL AUDITS

American Samoa

2002-I-0003                   Assessment and Collection of Taxes, American Samoa Government (11/15/2001);
                              15 Recommendations, $7,148,769

Guam

2001-I-0417                    Loan Programs, Guam Economic Development Authority, Government of Guam
                              (09/21/2001); 10 Recommendations

2001-I-0419                   Qualifying Certificate Program, Guam Economic Development Authority,
                              Government of Guam (09/30/2001); 14 Recommendations, $59,218,806

2002-I-0016                   Bond Services, Trust Fund Activities, Guam Economic Development Authority,
                              Government of Guam (03/28/2002); 4 Recommendations, $68,018,988

2002-I-0036                   Management of Federal Grants, Department of Mental Health and Substance
                              Abuse, Government of Guam (08/19/2002); 5 Recommendations

2003-I-0072                   Guam Waterworks Authority, Government of Guam (09/30/2003);
                              3 Recommendations, $13,232


Northern Mariana Islands

2003-I-0073                   Saipan Harbor Improvement Project, Commonwealth Ports Authority,
                              Commonwealth of the Northern Mariana Islands (09/30/2003);
                              2 Recommendations




                         Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                    -68-
                                                                                             Appendix 7

U.S. Virgin Islands

1993-I-0572                Supply and Equipment Management, Department of Education, Government of
                           the Virgin Islands (02/19/1993); 8 Recommendations, $310,000

1997-I-0243                Workmen's Compensation Program, Government of the Virgin Islands
                           (12/30/1996); 1 Recommendation

1998-I-0263                Sewage System User Fees, Government of the Virgin Islands (02/20/1998);
                           4 Recommendations, $547,667

1998-I-0384                Hurricane-Related Contracting, Department of Education, Government of the
                           Virgin Islands (03/31/1998); 2 Recommendations, $5,418

1998-I-0468                Followup of Recommendations Relating to the Bureau of Corrections,
                           Department of Justice, Government of the Virgin Islands (05/29/1998);
                           5 Recommendations

1998-I-0670                Interfund Loans and Federal Grant Balances, Government of the Virgin Islands
                           (09/09/1998); 10 Recommendations, $120,000,000

1999-I-0365                Followup of Recommendations Relating to Personnel Management Practices,
                           Division of Personnel, Government of the Virgin Islands (03/26/1999);
                           3 Recommendations, $24,300,000

2001-I-0107                Administrative Functions, Legislature of the Virgin Islands, Government of the
                           Virgin Islands (12/29/2000); 8 Recommendations, $1,320,293

2002-I-0009                Virgin Islands Housing Finance Authority, Government of the Virgin Islands
                           (12/31/2001); 1 Recommendation

2002-I-0042                Federal Highway Grants, Department of Public Works, Government of the Virgin
                           Islands (08/30/2002); 1 Recommendation

2003-I-0002                Public Finance Authority, Government of the Virgin Islands (11/22/2002);
                           8 Recommendations, $30,891,687

2003-I-0003                Compliance with the Memorandum of Understanding between the Governor of
                           the Virgin Islands and the Secretary of the Interior (01/06/2003);
                           6 Recommendations

2003-I-0067                Emergency Services Surcharge Collections by Innovative Telephone Corporation
                           on behalf of the Government of the Virgin Islands (09/26/2003);
                           1 Recommendation


                      Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                 -69-
Appendix 7

                                      SINGLE AUDITS

Chuuk

2003-A-0405             Chuuk State Government, Federated States of Micronesia, Fiscal Year Ended
                        September 30, 2001 (08/27/2003); 7 Recommendations, $349,497

Federated States of Micronesia

2002-A-0237             Federated States of Micronesia National Government, Fiscal Year Ended
                        September 30, 2000 (04/03/2002); 1 Recommendation, $329,504

2003-A-0388             National Government, Federated States of Micronesia, Fiscal Year Ended
                        September 30, 2001 (08/22/2003); 12 Recommendations, $434,857

Guam

2001-A-0289             Government of Guam, Fiscal Year Ended September 30, 1999 (03/26/2001);
                        35 Recommendations, $3,147,789

2002-A-0164             Government of Guam, Fiscal Year Ended September 30, 2000 (01/30/2002);
                        11 Recommendations, $3,526,590

2003-A-0321             Government of Guam, Fiscal Year Ended September 30, 2001 (06/20/2003);
                        6 Recommendations, $4,262,576

Kosrae

1994-A-0367             State of Kosrae, Federated States of Micronesia, Fiscal Year Ended
                        September 30, 1992 (02/24/1994); 9 Recommendations


Northern Mariana Islands

2001-A-0269             Commonwealth of the Northern Mariana Islands, Fiscal Year Ended
                        September 30, 1999 (03/08/2001); 43 Recommendations, $146,174

2002-A-0180             Commonwealth of the Northern Mariana Islands, Fiscal Year Ended
                        September 30, 2000 (02/19/2002); 4 Recommendations

2003-A-0335             Commonwealth of the Northern Mariana Islands, Fiscal Year Ended
                        September 30, 2001 (07/03/2003); 5 Recommendations


                   Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                              -70-
                                                                                         Appendix 7

Northern Mariana Islands

2003-A-0338            Northern Marianas College, Fiscal Year Ended September 30, 1997
                       (07/11/2003); 1 Recommendation

Palau

1992-A-0885            Republic of Palau, Fiscal Year Ended September 30, 1989 (06/05/1992);
                       1 Recommendation, $40,262

2001-A-0261            Palau Community Action Agency, Fiscal Year Ended September 30, 1999
                       (03/05/2001); 10 Recommendations

2003-A-0234            Palau Community College, Fiscal Year Ended September 30, 1999 (04/09/2003);
                       7 Recommendations, $52,564

2003-A-0401            Republic of Palau National Government, Fiscal Year Ended September 30, 2002
                       (08/22/2003); 3 Recommendations

Pohnpei

1994-A-0527            State of Pohnpei, Federated States of Micronesia, Fiscal Year Ended
                       September 30, 1992 (04/19/1994); 21 Recommendations $2,764

2003-A-0389            State of Pohnpei, Federated States of Micronesia, Fiscal Year Ended
                       September 30, 2001 (08/22/2003); 10 Recommendations $74,332

Virgin Islands

2003-A-0167            Government of the Virgin Islands, Fiscal Year Ended September 30, 2001
                       (02/04/2003); 3 Recommendations

Yap

2003-A-0406            State of Yap, Federated States of Micronesia, Fiscal Year Ended
                       September 30, 2001 (08/27/2003); 1 Recommendation




                  Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                             -71-
Appendix 8

                  Cross References to the Inspector General Act
Inspector General Act of 1978, as amended                                                     Page

Section 4(a)(2)   Review of Legislation and Regulations                                       N/A*

Section 5(a)(1)   Significant Problems, Abuses, and Deficiencies                              2-25

Section 5(a)(2)   Recommendations for Corrective Action With Respect to Significant           2-25
                  Problems, Abuses, and Deficiencies

Section 5(a)(3)   Significant Recommendations From Agency's Previous Reports on Which         63-67
                  Corrective Action Has Not Been Completed

Section 5(a)(4)   Matters Referred to Prosecutive Authorities and Resulting Convictions       ii-iii

Section 5(a)(5)   Matters Reported to the Head of the Agency                                  N/A

Section 5(a)(6)   List of Audit Reports Issued During the Reporting Period                    27-44

Section 5(a)(7)   Summary of Significant Reports                                              2-25

Section 5(a)(8)   Statistical Table – Questioned Costs                                         46

Section 5(a)(9)   Statistical Table – Recommendations That Funds Be Put to Better Use          47

Section 5(a)(10) Summary of Audit Reports Issued Before the Commencement of the               49-62
                 Reporting Period for Which No Management Decision Has Been Made

Section 5(a)(11) Significant Revised Management Decisions Made During the Reporting           N/A
                 Period

Section 5(a)(12) Significant Management Decisions With Which the Inspector General Is in      N/A
                 Disagreement

Section 5(a)(13) Information Described Under Section 05(b) of the Federal Financial           N/A
                 Management Improvement Act of 1996




*N/A = Nothing to report this period.



                        Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                   -72-
                                                                                           General Information

Send requests for publications to:
By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    1849 C Street NW
                    Mail Stop 5341, MIB
                    Washington, D.C. 20240


By Phone:           (202) 208-4599

By Fax:             (202) 208-4998

On the Internet: www.oig.doi.gov




Photo Credits
Cover photo: Desert Tortoise Habitat in St. George, Utah, courtesy U.S. Fish and Wildlife Service.
All photos courtesy DOI, its bureaus and offices, and Microsoft Clip Art Gallery.


                         Semiannual Report to the Congress: October 1, 2003 - March 31, 2004

                                                    -73-
  Report Fraud, Waste, Abuse,
     and Mismanagement
              Fraud, waste, and abuse in government
              concerns everyone: Office of Inspector
              General staff, departmental employees,
                and the general public. We actively
              solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse related
           to departmental or Insular Area programs and
   operations. You can report allegations to us in several ways.



By Mail:                  U.S. Department of the Interior
                          Office of Inspector General
                          Mail Stop 5341 MIB
                          1849 C Street, NW
                          Washington, D.C. 20240



By Phone:                 24-Hour Toll Free          800-424-5081
                          Washington Metro Area      202-208-5300
                          Caribbean Field Office     340-774-8300
                          Hawaiian Field Office      808-525-5310




By Fax:                   202-208-6081




By Internet:              www.oig.doi.gov
